<html>
<title> - STRENGTHENING THE SAFETY AND SECURITY OF OUR NATION: THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 STRENGTHENING THE SAFETY AND SECURITY OF OUR NATION: THE PRESIDENT'S 
FISCAL YEAR 2019 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-63

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
30-901 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ff8eff0dffceaecebf7faf3efb1fcf0f2b1">[email&#160;protected]</a> 
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Lou Barletta, a Representative in Congress From the 
  State of Pennsylvania:
  Prepared Statement.............................................     7
The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania:
  Prepared Statement.............................................     7

                                Witness

Hon. Kirstjen M. Nielsen, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11

                             For the Record

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York:
  Letter.........................................................    41
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter.........................................................    61
  E-mail.........................................................    62

                                Appendix

Questions From Chairman Michael T. McCaul for Honorable Kirstjen 
  M. Nielsen.....................................................    65
Questions From Ranking Member Bennie G. Thompson for Honorable 
  Kirstjen M. Nielsen............................................    66
Questions From Honorable Lou Barletta for Kirstjen M. Nielsen....    67
Questions From Honorable Sheila Jackson Lee for Kirstjen M. 
  Nielsen........................................................    67
Questions From Honorable John Katko for Kirstjen M. Nielsen......    67
Questions From Honorable James R. Langevin for Kirstjen M. 
  Nielsen........................................................    68
Questions From Honorable Daniel M. Donovan, Jr. for Kirstjen M. 
  Nielsen........................................................    68
Question From Honorable William Keating for Kirstjen M. Nielsen..    69
Questions From Honorable John H. Rutherford for Kirstjen M. 
  Nielsen........................................................    69
Question From Honorable Bonnie Watson Coleman for Kirstjen M. 
  Nielsen........................................................    70
Questions From Honorable Kathleen Rice for Kirstjen M. Nielsen...    70
Question From Honorable J. Louis Correa for Kirstjen M. Nielsen..    71

 
 STRENGTHENING THE SAFETY AND SECURITY OF OUR NATION: THE PRESIDENT'S 
FISCAL YEAR 2019 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Thursday, April 26, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, King, Rogers, Barletta, 
Perry, Katko, McSally, Ratcliffe, Donovan, Gallagher, Higgins, 
Garrett, Fitzpatrick, Estes, Bacon, Thompson, Jackson Lee, 
Langevin, Keating, Payne, Watson Coleman, Rice, Correa, 
Demings, and Barragan.
    Chairman McCaul. Committee on Homeland Security will come 
to order. Committee is meeting today to hear from the Secretary 
of the Department of Homeland Security, Kirstjen Nielsen, on 
the administration's priorities for the Department. I now 
recognize myself for an opening statement.
    Our homeland faces threats on multiple fronts. 
International terrorists seek to attack our country and kill 
Americans. Human traffickers, drug smugglers, and gangs like 
MS-13 are crossing our borders and infecting our neighborhoods. 
Nation-states and hackers are engaged in cyber warfare. The 
next natural disaster can strike at any moment. We cannot let 
our guard down.
    We need a budget that matches these most pressing needs. 
Fortunately, the President's fiscal year 2019 budget request 
addresses many of these concerns. The $1.6 billion for a border 
wall and additional funds to hire more ICE officers and Border 
Patrol agents will help curb illegal immigration.
    Securing our borders continues to be one of my top 
priorities. That is why I introduced legislation to get the job 
done. My bill authorizes $18 billion for the construction of a 
border wall, ends funding for sanctuary cities, closes 
dangerous loopholes, and puts more boots on the ground.
    It also secures ports of entry, authorizes the National 
Guard to provide aviation and intelligence support, and targets 
visa overstays, and also provides for strong technology which 
is desperately needed down there.
    This administration has been a strong supporter of these 
solutions, and I commend the recent decision to deploy the 
National Guard to the border. I am pleased to see that $713 
million requested for cybersecurity operations at NPPD was 
requested. Cybersecurity is one of the most important missions 
of the Department as the Secretary knows.
    As Americans become more reliant on cyber space, we are all 
targets. This committee has a strong bipartisan track record on 
this issue. We passed bills that expedite hiring at DHS and 
enhance cyber threat information sharing. We also recently 
secured $26 million to support election infrastructure.
    In January, the House approved our landmark bill to create 
a stand-alone organization to elevate the cybersecurity mission 
at DHS. I am hopeful that the Senate will get this bill to the 
President's desk very soon.
    Another area of concern for me is aviation security. I have 
been very disappointed, I have to be honest, at the slow pace 
of installing computed tomography scans in our airports. 
However, I was pleased to see that we secured $65 million in 
the omnibus for TSA to begin installing this technology 
immediately.
    These CT scanners provide 3D imagery to help stop IEDs and 
other threats from boarding airplanes. Compared to the 
technology we have now, it is a difference between an X-ray and 
an MRI. The fiscal year 2019 budget request also requests an 
additional $71.5 million for CT, which will certainly help. But 
I do not believe that is enough to mitigate the threat 
landscape that we have currently.
    Many terrorists are only one plane ride away from the 
United States and our aviation sector is still the crown jewel 
of targets. DHS must fight through all bureaucratic hurdles so 
CT scanners are in our airports and last-point-of-departure 
airports for inbound flights as soon as possible.
    Some parts of this budget request will help DHS carry out 
its mission, but others I believe miss the mark. The $473 
million cut to FEMA grants for State and local first responders 
is a major step backward. Many parts of the country, including 
my home State of Texas, were devastated by natural disasters 
last year. I personally toured the devastation after Hurricane 
Harvey and our first responders played a key role in saving 
lives.
    Last week, our committee reviewed the lessons learned from 
both the Boston Marathon bombings and the recent bombings in my 
home town of Austin. Our first responders were crucial in both 
cities and they need our support. I hope today's hearing will 
shed light on why these grants are targeted for cuts.
    Protecting our homeland must be a unifying cause. 
Partisanship should end at the water's edge. Last July, the 
House passed the first-ever comprehensive reauthorization of 
DHS with overwhelming bipartisan support. This reauthorization 
reasserts Congress' authority to write laws, streamlines 
redundant programs, protects taxpayer dollars, and supports 
America's front-line defenders and first responders.
    Unfortunately, our friends in the Senate have yet to pass 
our bill. I strongly urge them to do so without further delay. 
Madam Secretary, in this Congress alone, our committee has 
passed 82 bills through the House and 6 were signed into law. 
Politico named us as the hardest-working committee in Congress.
    A strong DHS is our goal, and we are here to support you. 
All of us are grateful for your service and for the hardworking 
professionals, the men and women at DHS. We all look forward to 
working with you in keeping our homeland safe.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 26, 2018
    Our homeland faces threats on multiple fronts. International 
terrorists seek to attack our country and kill Americans. Human 
traffickers, drug smugglers, and gangs like MS-13, are crossing our 
borders and infecting our neighborhoods. Nation-states and hackers are 
engaging in cyber warfare. And the next natural disaster can strike at 
any moment.
    We cannot let our guard down. We need a budget that matches these 
most pressing needs. Fortunately, the President's fiscal year 2019 
budget request addresses many of these concerns. The $1.6 billion for a 
border wall and additional funds to hire more ICE officers and Border 
Patrol agents will help curb illegal immigration.
    Securing our borders continues to be one of my top priorities. That 
is why I introduced legislation to get the job done. My bill authorizes 
$18 billion for the construction of a border wall, ends funding for 
sanctuary cities, closes dangerous loopholes, and puts more boots on 
the ground.
    It also secures ports of entry, authorizes the National Guard to 
provide aviation and intelligence support, and targets visa overstays. 
This administration has been a strong supporter of these solutions and 
I commend the recent decision to deploy the National Guard to the 
border.
    I am also pleased to see $713 million requested for cybersecurity 
operations at NPPD. As Americans become more reliant on cyber space, we 
are all targets. This committee has a strong bipartisan track record on 
this issue.
    We passed bills to expedite hiring at DHS and enhance cyber threat 
information sharing. We also recently secured $26 million to support 
election infrastructure.
    In January, the House approved our landmark bill to create a stand-
alone organization to elevate the cybersecurity mission at DHS. I am 
hoping the Senate will get this bill to the President's desk very soon.
    Another area of concern for me is aviation security. I have been 
very disappointed at the slow pace of installing Computed Tomography 
(CT) scans in our airports.
    However, I am glad that we secured $65 million in the Omnibus for 
TSA to begin installing this technology immediately.
    These CT scanners provide 3D imagery to help stop IEDs and other 
threats from boarding airplanes. Compared to the technology we have 
now, it's the difference between an X-ray and an MRI.
    The fiscal year 2019 budget request for an additional $71.5 million 
for CT will certainly help, but I don't believe it is enough to 
mitigate the threat.
    Many terrorists are only one plane ride away. Our aviation sector 
is still their ``crown jewel'' of targets.
    DHS must fight through all bureaucratic hurdles so CT scanners are 
in our airports and last points of departure for in-bound flights as 
soon as possible.
    Some parts of this budget request will help DHS carry out its 
mission. But other parts miss the mark. The $473 million cut to FEMA 
grants for State and local first responders is a major step backwards. 
Many parts of the country, including my home State of Texas, were 
devastated by natural disasters last year.
    I personally toured the devastation after Hurricane Harvey. Our 
first responders played a key role in saving lives.
    Last week, our committee reviewed the lessons learned from both the 
Boston Marathon bombings and the recent bombings in my home town of 
Austin.
    Our first responders were crucial in both cities and they need our 
support. I hope today's hearing will shed light on why these grants are 
targeted for cuts.
    Protecting our homeland must be a unifying cause. Partisanship 
should end at the water's edge. Last July, the House passed the first-
ever, comprehensive reauthorization of DHS with overwhelming bipartisan 
support.
    This reauthorization reasserts Congress's authority to write laws, 
streamlines redundant programs, protects taxpayer dollars, and supports 
America's front-line defenders and first responders.
    Unfortunately, our friends in the Senate have not yet passed our 
bill. I strongly urge them to do so without further delay. Madame 
Secretary, in this Congress alone, our committee has passed 82 bills 
through the House and 6 were signed into law. Politico named us the 
``hardest-working committee in Congress.''
    A strong DHS is our goal and we are here to support you. All of us 
are grateful for your service and for the hardworking professionals at 
DHS. We all look forward to working with you to keep our homeland safe.

    Chairman McCaul. The Chair now recognizes the Ranking 
Member, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. Today is your first appearance 
before the Committee on Homeland Security, 4.5 months after 
your swearing in as Secretary.
    I have served on the Committee of Homeland Security since 
its establishment, and have been fortunate to work with all 
five of your predecessors from both political parties. Each of 
them, including your former boss, Secretary John Kelly, stopped 
by to establish a working relationship within days of being 
sworn in to the position.
    That did not happen with you, which is a shame. Just like 
you met some of the Republicans on this committee this morning, 
Democrats stand ready, likewise, to meet with you. Perhaps next 
time, another 15 minutes from your schedule and you can stop by 
and meet some of the wonderful Democrats who love America too 
and want to do all they can to continue to keep America safe.
    While we fundamentally disagree with many of the Trump 
administration's policies, I can assure you that Democrats on 
this committee are just as committed as our Republican 
counterparts to keeping our Nation secure while upholding our 
most important values.
    Chairman McCaul has said, even in his opening statement of 
this committee, perhaps if others in Congress did as we do, we 
could in fact have a better situation. Eighty-two pieces of 
legislation passed by this committee is no small feat. I would 
say to him, however, that it is not Democrat's fault that the 
legislation had not been signed. So we will try to fix that too 
in time.
    I hope that in the future, Madam Secretary, you will make 
more of an effort to conduct outreach to Members of the 
Democratic side on the committee. We have former chiefs of 
police, county commissioners, members of the legislature, 
district attorneys, everyone you can name, and they all love 
this country. The American people expect no less that we engage 
each other in these important issues.
    Indeed, this is a critical time for the Department of 
Homeland Security. America faces threats from the troubling 
rise of domestic terrorism, mass shootings, and foreign 
terrorists organizations that seek to do us harm.
    Russia and other actors are likely to continue their 
interference in our election systems including the upcoming 
mid-term elections. Puerto Rico and the U.S. Virgin Islands are 
still devastated by Hurricane Maria and Irma and another 
hurricane season is just weeks away.
    Meanwhile, the Department is dealing with problems of 
President Trump's own making. His Muslim travel ban, his 
decision to terminate the DACA program, his Executive Order on 
immigration enforcement and border security which seeks to make 
us a Nation of immigrants no more.
    No longer the Department's chief of staff but now its 
Secretary, you, its leader, the buck stops with you, Madam 
Secretary. I am concerned that since becoming Secretary, you 
have not always been forthcoming on certain matters. You 
testified before the Senate that you do not specifically 
remember whether President Trump used a slur to describe 
African countries during a White House meeting.
    You claim ``I actually do not know that'' when asked at the 
Senate hearing whether Norway is a predominately Caucasian 
country after the President questioned why we could not have 
more immigrants from Norway. Most recently, you declined to 
explain the President's tweet referring to a breeding concept 
in sanctuary cities in California.
    If this is an indication of how you, as Secretary, interact 
with the White House on Homeland Security policy matters, there 
may be cause for concern. Your recent statements on Homeland 
Security matters have been less than encouraging.
    Based on your press release this week, you would think the 
most important Homeland Security problem facing the Nation is a 
handful of Central Americans moving through Mexico. That does 
not make it so. We know who they are. We know where they are. 
We know they generally do not attempt to evade the Border 
Patrol, but rather present themselves to the agents and 
officers upon arrival.
    But--fear about this so-called caravan gets airtime on 
certain media outlets and plays well with elements of President 
Trump's political base. Better to distract the American people 
from the real issues facing the Department and perhaps from the 
President's own problems, too.
    Likewise, we have heard a lot in recent days about so-
called loopholes in our immigration system as it relates to 
children. These are not loopholes. They are basic humanitarian 
protections enacted by Congress to protect vulnerable children 
and ensure that those who have legitimate asylum claims are 
heard, and those who do not are returned home safely.
    We need only to look at some of the terrible cases that 
occurred within this legal framework which implemented to know 
why Congress acted. Politicizing and demonizing children should 
be beneath the Department, and Congress must not go down that 
path.
    As you know, Madam Secretary, the mission of the Department 
of Homeland Security is to safeguard the American people, our 
homeland and our values. I appreciate this and understand that 
it is no easy task, and that we are living in challenging times 
in more ways than one. I hope that the Department, under your 
leadership and with over 240,000 employees strong, live up to 
that.
    With that, Mr. Chair, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 26, 2018
    Today is your first appearance before the Committee on Homeland 
Security, four-and-a-half months after your swearing-in as Secretary. I 
have served on the Committee on Homeland Security since its 
establishment, and have been fortunate to work with all five of your 
predecessors from both political parties.
    Each of them, including your former boss, Secretary John Kelly, 
picked up the phone or stopped by to establish a working relationship 
within days of being sworn in to the position. That did not happen with 
you, which is a shame.
    While we fundamentally disagree with many of the Trump 
administration's policies, I can assure you that Democrats on this 
committee are just as committed as our Republican counterparts to 
keeping our Nation secure while upholding our most important values.
    Chairman McCaul has said this committee, perhaps unlike some others 
in Congress, prides itself in its ability to come together where we can 
to enact legislation in the interest of the American people. I agree.
    I hope that in the future you will make more of an effort to 
conduct outreach to Members on this side of the aisle. The American 
people expect that we engage each other on important issues.
    Indeed, this is a critical time for the Department of Homeland 
Security. America faces threats from the troubling rise of domestic 
terrorism, mass shootings, and foreign terrorist organizations that 
seek to do us harm. Russia and other actors are likely to continue 
their interference in our election systems, including the upcoming 
midterm elections. Puerto Rico and the U.S. Virgin Islands are still 
devastated by Hurricanes Maria and Irma, and another hurricane season 
is just weeks away.
    Meanwhile, the Department is dealing with problems of President 
Trump's own making. His Muslim travel bans, his decision to terminate 
the DACA program, and his Executive Orders on immigration enforcement 
and border security, which seek to make us a Nation of immigrants no 
more.
    No longer the Department's chief of staff, but now its Secretary, 
its leader, the buck stops with you. I am concerned, however, that 
since becoming Secretary you have not always been forthcoming on 
certain matters.
    You testified before the Senate that you do not ``specifically 
remember'' whether President Trump used a slur to describe African 
countries during a White House meeting.
    You claimed ``I actually do not know that'' when asked at that 
Senate hearing whether Norway is a predominantly Caucasian country, 
after the President questioned why we could not have more immigrants 
from Norway.
    Most recently, you declined to explain the President's tweet 
referring to a ``breeding concept'' in ``sanctuary cities'' in 
California.
    If this is any indication of how you, as Secretary, interact with 
the White House on homeland security policy matters, there may be cause 
for concern.
    Your recent statements on homeland security matters have been less 
than encouraging. Based on your press releases this week, you would 
think the most important homeland security problem facing the Nation is 
a handful of Central Americans moving through Mexico. That does not 
make it so.
    We know who they are. We know where they are. And we know they 
generally do not attempt to evade the Border Patrol, but rather present 
themselves to your agents and officers upon arrival. But fomenting fear 
about this so-called ``caravan'' gets airtime on certain media outlets 
and plays well with elements of President Trump's political base.
    Better to distract the American people from the very real issues 
facing the Department and perhaps from the President's own problems 
too. Likewise, we have heard a lot in recent days about so-called 
``loopholes'' in our immigration system as it relates to children. 
These are not loopholes.
    They are basic humanitarian protections enacted by Congress to 
protect vulnerable children and ensure that those who have legitimate 
asylum claims are heard, and those who do not are returned home safely.
    We need only look at some of the terrible cases that occurred 
before this legal framework was implemented to know why Congress acted. 
Politicizing and demonizing children should be beneath the Department, 
and Congress must not go down that path.
    As you know the mission of the Department of Homeland Security is 
to ``safeguard the American people, our homeland, and our values.'' I 
appreciate this is no easy task, and that we are living in challenging 
times in more ways than one. I hope that the Department, under your 
leadership and with over 240,000 employees strong, is up to it.

    Chairman McCaul. Gentleman yields back. Other Members are 
reminded that opening statements may be submitted for the 
record.
    [The statements of Hon. Barletta and Perry follow:]
                  Statement of Honorable Lou Barletta
    Secretary Nielsen, thank you for coming before this committee today 
to discuss the importance of the security of the United States, and for 
your service to this country.
    I am encouraged that President Trump has put a priority on 
enforcement and that the American people finally have a partner in the 
White House with their best interests at heart.
    The United States is a compassionate country, but we are also a 
country of laws. We as a Congress have failed by not enforcing the laws 
of our land and refusing to put the safety and well-being of the 
American people first.
    That is why I am a cosponsor of the Securing America's Future Act. 
This legislation is a common-sense solution that secures our borders, 
improves interior enforcement, and provides relief for those that came 
here by no fault of their own. I am hopeful the House will vote on this 
bill soon.
    Immigration to the United States has quadrupled from 250,000 per 
year in the 1950's, to more than 1 million annually since 1990. America 
is the third most-populous nation in the world with over 330 million 
people. We cannot simultaneously sustain high levels of legal 
immigration while millions of illegal aliens continue to cross our 
borders.
    My city of Hazleton had an illegal immigration problem. Our 
population grew by 50 percent, but our tax revenue stayed the same. 
With the spike in illegal immigration came gangs, drugs, theft, and 
other crimes that left our police force undermanned and overwhelmed.
    Hospitals and schools were pushed to their breaking point, as over-
crowding moved public resources from tax-paying Americans and legal 
immigrants, to illegal aliens.
    I have sat at the tables of Pennsylvanians who have lost loved ones 
to the violent acts of illegal aliens, and it is those people for whom 
I have compassion.
    It is time to secure our borders, enforce our Federal laws, and put 
America first.
                                 ______
                                 
                   Statement of Honorable Scott Perry
                             April 26, 2018
    Earlier this spring, our Nation's Federal debt surpassed $21 
trillion for the first time in history. This staggering milestone is a 
reminder of the troubling fiscal realities facing our Nation and a 
legacy of years of irresponsible spending under the Obama 
administration. In February, testifying before Congress, the director 
of national intelligence, Dan Coats, labeled the skyrocketing Federal 
debt a ``dire threat'' to our National security.
    In this fiscal environment, as the Federal Government seeks to cut 
its expenditures, homeland security must remain a top priority. Our 
Nation faces an unprecedented array of threats, from the continuing 
menace of the Islamic State to the increasingly sophisticated cyber 
capabilities of our adversaries. I am therefore pleased to see that the 
President's fiscal year 2019 budget request prioritizes funding the 
important missions carried out by the Department of Homeland Security 
(DHS).
    DHS's fiscal year 2019 budget request would fund the Department at 
$47.5 billion dollars (net discretionary funding). The budget request 
calls for increases in funding for Customs and Border Protection (CBP), 
Immigration and Customs Enforcement (ICE), and the Federal Law 
Enforcement Training Center (FLETC), and provides $1.6 billion for 
border wall construction on the Southwest Border and $2.8 billion for 
additional ICE detention beds.
    While I commend the Department's request for addressing some of the 
most challenging issues facing our Nation, I do have several 
reservations.
    The Department's budget request proposes to cut the DHS Office of 
Inspector General's (OIG) budget by nearly $6 million from fiscal year 
2018 enacted levels. As the Chairman of the Subcommittee on Oversight 
and Management Efficiency, I have seen first-hand the importance of 
maintaining the Department's transparency and accountability to 
Congress and the American people. OIG is instrumental in assisting 
Congress in its oversight role over DHS and I am concerned that 
proposed cuts to OIG's budget will impair the Inspector General's 
ability to properly audit the Department's operations.
    I am also concerned about the Department's $231 million request in 
new funding for DHS headquarters consolidation at the historic St. 
Elizabeths campus in Southeast Washington, DC. Earlier this month, the 
Subcommittee on Oversight and Management Efficiency held a hearing to 
continue oversight over the St. Elizabeths project. The subcommittee 
learned that headquarters consolidation continues to face schedule 
delays and that DHS and the U.S. General Services Administration are 
working to release an updated plan forward for the project by the end 
of the year. Given the track record of failure at St. Elizabeths, I 
urge Congress to exercise caution in any funding for new construction 
until an updated plan is finalized.
    Congress is charged with both the responsible stewardship of 
taxpayer dollars and helping to ensure the security of the American 
people. DHS's fiscal year 2019 budget request is an important step in 
fulfilling both of these responsibilities. I want to thank Secretary 
Nielsen for appearing before the committee this morning and I look 
forward to learning more about the Department's mission priorities in 
the upcoming fiscal year as reflected by the President's budget 
request.

    Chairman McCaul. On December 6, 2017, Kirstjen Nielsen was 
sworn in as the sixth Secretary of the Department of Homeland 
Security. This is also the Secretary's first appearance before 
our committee, and we thank you for being here today. Your full 
statement will appear in the record. The Chair now recognizes 
the Secretary for an opening statement.

    STATEMENT OF HON. KIRSTJEN M. NIELSEN, SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Nielsen. Try that again. Thank you.
    Chairman McCaul, Ranking Member Thompson, and distinguished 
Members of the committee, it is a privilege to appear before 
you today. I am honored to present the President's 2019 budget 
request for the Department of Homeland Security and discus how 
that budget will help keep America safe.
    Let me first take a moment to thank this committee for its 
support for the $48.2 billion provided to the Department in the 
recently-passed Consolidated Appropriations Act. The support of 
this committee is critical to advancing the many DHS missions, 
and I truly thank you for your continued support.
    I would also like to thank you for your support for our 
reauthorization. As you know, it is critical that the men and 
women of the Department have the tools, resources, and skill 
sets that they need to further the mission of this country.
    The President's 2019 budget builds on the fiscal year 2018 
and requests $47.5 billion in net discretionary funding for the 
Department of Homeland Security. It also includes an additional 
$6.7 billion for the Disaster Relief Fund for response and 
recovery to major disasters.
    Today, I would like to outline several core missions 
empowered by this budget. First, securing and managing our 
borders and enforcing our immigration laws. No. 2, protecting 
our Nation from terrorism and countering threats. No. 3, 
preserving and upholding the Nation's prosperity and economic 
security. No. 4, securing cyber space and critical 
infrastructure. No. 5, strengthening homeland security 
preparedness and achieving resilience.
    Within all of these missions, we are aiming to put our 
employees first and empower our front-line defenders to do 
their job. This will help mature the Department, and more 
importantly, help us better secure the homeland.
    For border immigration, first, we are focused on securing 
and managing our borders and enforcing our immigration laws. 
While, we have made vast improvements in border security over 
the last 15 months, we continue to see unacceptable levels of 
illegal drugs, dangerous gang and transnational criminal 
organization activity, and illegal immigration flow across our 
Southern Border.
    The current statistics for last month tell a dangerous 
story. Overall, the number of illegal aliens encountered at the 
border increased more than 200 percent when compared to the 
same time last year. Perhaps more troubling, the number of 
unaccompanied alien children encountered has increased over 800 
percent, and the number of families encountered increased over 
680 percent.
    We also saw a 37 percent increase in drug seizures at the 
border in March, and I am sad to report we have an increase in 
73 percent in assaults on our border agents. This is 
unacceptable and it must be addressed. We must do more to 
secure our borders against threats and illegal entry and close 
dangerous loopholes that are making our country vulnerable.
    We have been apprehending gangs, TCOs, and aliens at the 
border with historic efficiency. But illicit smuggling groups 
understand that our ability to actually remove those who come 
here illegally does not keep pace. They have discovered and 
continue to exploit legal loopholes to avoid detention and 
removal, and have shown no intention of stopping.
    These legal loopholes are strong pull factors that entice 
those looking to circumvent our laws. For border security to 
work, violation of the law must have consequences.
    As I have said many times, interdiction without the ability 
to promptly remove those who have no lawful basis to enter or 
remain is not border security. It undermines our National 
security and we must work together to close these loopholes. 
This budget would invest in new border wall construction, 
technology, and infrastructure to stop this illegal activity.
    I would be remiss if I did not say that one of our greatest 
investments is in our people. Recruiting, hiring, and training 
additional U.S. Border Patrol agents, additional U.S. Customs 
and Immigration Enforcement officers, and additional support 
personal to carry out these vital missions.
    Second, we must continue to protect our Nation from 
terrorism and decisively counter threats. This is the reason 
the Department was created and it remains a cornerstone of our 
work.
    Terrorists are adapting. They are taking an all-of-the-
above approach to spreading violence. That includes promoting 
attacks on soft targets, using homemade weapons, and weapons 
they can bring in a bring-your-own-weapon style approach.
    It includes crowdsourcing their violence through on-line 
radicalization, inspiration, direction, and recruitment. But 
they also remain focused on conducting sophisticated attacks 
including using concealed weapons, weapons of mass destruction, 
and modifying new technologies such as drones into deadly 
weapons.
    This budget ensures that our defenses keep up with the 
innovation of our enemies. For instance, it allows TSA to 
deploy advanced tools to detect threats. It funds new CBP 
initiatives to identify high-risk travelers. It ramps up our 
defenses against WMD, and it provides vital funding to protect 
soft targets from concert venues to schools against attack.
    Third, we are focused on preserving and upholding the 
Nation's prosperity and economic security. On an average day, 
the Coast Guard facilitates the movement of $8.7 billion worth 
of goods and commodities through the Nation's maritime 
transportation system.
    Each day at our Nation's 328 air, land, and sea ports of 
entry, CBP welcomes nearly 1 million visitors, screens more 
than 67,000 cargo containers, arrests more than 1,100 
individuals, and seizes nearly 6 tons of illicit drugs.
    Annually CBP facilitates an average of more than $3 
trillion in legitimate trade while enforcing U.S. trade laws 
and processing more than $2.4 trillion in international trade 
transactions every year.
    The President's budget helps provide critical resources to 
these efforts to keep our country competitive and to advance 
the prosperity of our people. The budget also will help 
continue efforts to keep foreign adversaries from stealing our 
trade secrets, technology, and innovation.
    Fourth, we must secure cyber space. This is one of my 
personal priorities as there is much to do in this area. Our 
networks are under attack constantly from all corners of the 
physical world.
    That is why DHS is taking historic strides to address 
systemic cyber risk, secure .gov networks, and strengthen the 
security and resilience of critical infrastructure. The budget 
would enable DHS to support State and local election officials 
in defending the integrity of our election systems.
    As you know, the Department's mission is to provide 
assistance to election officials in the form of advice, 
intelligence, technical support, and instant response planning 
with the ultimate goal of building a more resilient and secure 
election enterprise to investing in hardware, software 
intrusion detection and analytical capabilities, we are better 
able to secure the digital ecosystem that makes our American 
way of life possible.
    Fifth, and finally, it is a core mission of DHS to 
strengthen homeland security preparedness and achieve National 
resilience. Last year, according to NOAA, our country 
experienced one of the most costly and damaging seasons for 
natural disasters in its history with a cumulative effect 
costing $3 billion.
    Through the FEMA and in cooperation with State, local, 
Tribal, and territorial governments across the country, we will 
devote the resources and attention needed to ensure recovery. 
But we must also help communities across the Nation create a 
culture of preparedness to be more resilient to disasters.
    A culture of preparedness is a National effort to be ready 
for the worst disasters at all levels. This budget helps us 
with these efforts and supports the DRF which is necessary to 
help State and local governments respond and recover.
    In conclusion, we need to empower the men and women of the 
Department to carry out these five missions and many others by 
giving them the resources they need. In addition to the various 
areas I mentioned today, I am also firmly committed to maturing 
the Department and putting our employees first.
    It is an honor to serve along the men and women of DHS who 
work tirelessly each day to secure our country and who are 
often unrecognized. I thank them for this service.
    I thank this committee to support our budget, in supporting 
our employees, supporting our missions and helping to make our 
Nation more secure. Thank you for your time and I look forward 
to your questions.
    [The prepared statement of Secretary Nielsen follows:]
               Prepared Statement of Kirstjen M. Nielsen
                             April 26, 2018
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the subcommittee: It is a privilege to appear before you today to 
discuss the Department of Homeland Security's (DHS) crucial missions 
and to present the President's fiscal year 2019 budget request for the 
Department.
    The men and women of DHS are exceptional and dedicated 
professionals who are on watch 24 hours a day, 365 days a year 
protecting Americans from threats by land, sea, air, and in cyber 
space, while also promoting our Nation's economic prosperity. They work 
tirelessly to strengthen the safety and security of our Nation from 
persistent and emerging dangers, including terrorists, transnational 
criminal organizations, rogue nation-states, and natural disasters.
    The fiscal year 2019 budget request provides funding to advance 
core DHS missions. It sustains and strengthens our most critical 
programs and capabilities and places emphasis on protecting our Nation 
from terrorism and countering threats; securing and managing our 
borders and enforcing our immigration laws; preserving and upholding 
the Nation's prosperity and economic security; securing cyber space and 
critical infrastructure; and strengthening homeland security 
preparedness resilience. DHS will also build a culture of efficiency on 
the foundation of agency reform efforts to ensure accountable, 
effective, and efficient operations.
    The fiscal year 2019 President's budget for DHS requests $47.5 
billion in net discretionary funding and an additional $6.7 billion for 
the Disaster Relief Fund (DRF) for response and recovery to major 
disasters.
    This budget would make crucial investments needed to secure our 
borders against threats and illegal entry. The request includes 
recruitment, hiring, and training of 750 additional U.S. Border Patrol 
Agents, 2,000 additional U.S. Immigration and Customs Enforcement (ICE) 
law enforcement officers, and more than 1,500 support staff needed to 
more robustly execute the Department's border security and immigration 
enforcement missions. It also funds construction and renovations at the 
Federal Law Enforcement Training Centers to meet increased training 
requirements for DHS.
    Investments in our layered defense at the border would include 65 
miles of new border wall construction in the highest-traffic zones 
along the Southwest Border, as well as priority tactical 
infrastructure, border security technology improvements, and aircraft 
acquisition. The administration also reiterates the unfunded wall 
requests from the fiscal year 2018 budget in addition to the 
investments outlined in the fiscal year 2019 budget. These investments 
ensure DHS law enforcement personnel are supported with effective 
surveillance technology and equipment to improve their ability to 
detect and interdict illegal activity.
    The fiscal year 2019 President's budget includes funding for 52,000 
detention beds, including 2,500 beds reserved for family units, to 
ensure that apprehended aliens who are subject to removal from the 
United States--such as illegal border crossers, criminal aliens, and 
National security threats--are detained in safe and secure detention 
facilities pending their removal. For apprehended aliens who are not 
considered a threat to our communities, but who may pose a diminished 
flight risk, the President's budget would fund ICE's Alternatives to 
Detention Program to provide intensive supervision for up to 82,000 
average daily participants through a combination of home visits, office 
visits, alert response, and electronic monitoring. Proposed funding for 
removal operations will facilitate the complex coordination required to 
return aliens safely and expeditiously to their home countries and pay 
for transportation costs.
    Unfortunately, some of these critical missions are impeded by 
jurisdictions that refuse to cooperate with DHS in the enforcement of 
Federal law. This makes it more dangerous for Federal agents and 
officers to do their jobs. It creates a greater threat to public 
safety, and results in greater expense to American taxpayers. I hope 
the committee will work with DHS to help make sure jurisdictions around 
the country do not harbor criminal aliens or put the men and women of 
DHS at risk while they are doing their jobs to protect the public.
    The budget gives our front-line operators the tools and resources 
they need to more aggressively disrupt and dismantle transnational 
threats. It would advance the administration's efforts to block 
terrorists, criminals, and other nefarious actors from reaching the 
United States and exploiting our immigration system. It would further 
integrate intelligence into DHS operations to make sure rapid changes 
in the threat environment are met with a near-real-time change in our 
response. And it proposes funding across the Department for initiatives 
that will help us keep pace with adaptive enemies and new threats.
    For example, the budget focuses on bolstering DHS activities to 
counter transnational criminal organizations (TCOs). TCOs are 
facilitating the illicit flow of opioids and other deadly substances 
into America. The drugs and violence they import are a threat to the 
homeland, which is why we are focused on ramping up counter-TCOs 
activities. The budget bolsters the capacity of ICE/HSI special agents 
to conduct transnational criminal investigations, and it provides 
funding to support law enforcement hiring and workload growth 
consistent with this mission, including $105 million for critical 
training, IT, facility support infrastructure, and wiretaps associated 
with ICE's proposed increased staffing and workload.
    The budget proposes essential funding to implement the President's 
Executive Orders to intensify vetting of U.S.-bound travelers and 
individuals in our immigration system. Since the beginning of last 
year, DHS has undertaken historic efforts to improve every phase of the 
vetting process so that we can be more confident in knowing who is 
coming into our country--and more capable of identifying nefarious 
actors. This includes making applications more rigorous, deepening 
background checks, tightening travel and arrival screening, and 
enforcing foreign government information-sharing requirements. The 
budget will facilitate the stand-up of the newly-announced National 
Vetting Center (NVC), which will become a central U.S. Government hub 
for fusing intelligence, law enforcement, and homeland security data to 
enhance the vetting process. A detailed implementation plan is 
currently under development to identify NVC capacity and operational 
needs that will inform future budget requests.
    Additionally, DHS is seeking to provide critical resources to the 
U.S. Coast Guard (USCG) to better defend the Nation against 
transnational threats and support the response to natural disasters. 
The USCG secures our maritime borders by operating up to more than 
1,500 miles offshore to extend the Nation's security and to enforce 
laws. During the 2017 hurricane season, the USCG, working alongside the 
Federal Emergency Management Agency (FEMA), was prepared and 
immediately responded to the needs of our citizens and partner nations. 
Their unique blend of statutory authorities combines civil law 
enforcement, response, and prevention with military service 
capabilities, resulting in an extremely agile force capable of 
responding to any significant event or emergency.
    The fiscal year 2019 President's budget requests $1.9 billion for 
the recapitalization of USCG assets. This funding provides for a new 
Offshore Patrol Cutter, four Fast Response Cutters, and the Nation's 
first new heavy Polar Icebreaker in more than 40 years, providing an 
advanced command, control, and communications platform capable of 
operating in the harshest environments. It also provides for timely and 
necessary sensor and service-life extensions to aircraft and 
improvements to shore infrastructure. These are the investments we need 
to be making to defend our territory, and I hope the committee will 
support our requests.
    We are also seeking important cybersecurity enhancements. This 
committee knows that the dangers we face on-line are serious, and they 
emanate from hackers, TCOs, nation-states, and other nefarious actors. 
DHS is on the digital front lines of this fight and is undertaking 
historic efforts to safeguard the Federal Government's civilian 
information technology systems and to work with all levels of 
government, international partners, and business sectors to share 
cybersecurity information and build resilient systems.
    The President's budget would continue investments in cybersecurity 
initiatives that protect Federal networks and address identified 
vulnerabilities. More than $644 million is requested for DHS's 
Continuous Diagnostics and Mitigation program and the National 
Cybersecurity Protection System program, commonly referred to as 
EINSTEIN, which provide network monitoring tools, intrusion prevention, 
intrusion detection, and analytical capabilities that strengthen the 
cybersecurity of Federal civilian departments and agencies.
    The threat is real, and we know that a sophisticated adversary can 
put the foundations of our democracy at risk through cyber attacks, 
which is why our request for fiscal year 2019 would also make sure DHS 
is positioned to counter foreign meddling by supporting State and local 
election officials in defending the integrity of election systems. The 
budget also would provide $158 million to secure the Nation's 
interoperable emergency communications capabilities that enable first 
responders and Government officials to continue to communicate in the 
event of natural and man-made disasters.
    Moreover, DHS is seeking to ramp up ``soft target'' security 
efforts. From terrorist attacks to school shootings, we have seen 
public areas continue to be struck by violence. Our National Protection 
and Programs Directorate (NPPD) is helping to lead the charge on soft 
target security. The President's budget would provide almost $12 
million for the establishment of the Soft Target Security Program which 
would expand NPPD's capabilities to reduce the risks to these locations 
through a mix of technology integration, targeted threat information 
sharing, training, and improved standards for security. This program 
will provide a more comprehensive, innovative, and coordinated approach 
to address threats to soft targets--including schools, entertainment 
venues, major events, and public spaces.
    Our wider transportation system also faces persistent and emerging 
threats, as terrorists adapt their tactics to target airlines, 
airports, and other transportation hubs. The President's budget was 
built to confront these challenges. It would add 687 TSA screeners and 
145 additional computed tomography systems in order to stay ahead of 
our enemies, especially by helping to better detect concealed 
explosives, threat devices, and suspicious passengers. This budget 
would also provide an increase of nearly $27 million for CBP's National 
Targeting Center to improve our capabilities to identify high-risk 
individuals and cargo both entering and leaving the United States in 
the air, land, and sea environments.
    Similarly, we are seeing an evolution in the danger posed by 
chemical, biological, radiological, and nuclear agents. That is why in 
December I announced the establishment of a DHS Countering Weapons of 
Mass Destruction Office (CWMD). I call on Congress to permanently 
authorize this Office and to ensure we have the authorities needed to 
protect Americans against such deadly agents. Already, CWMD has been at 
the forefront of driving the Department's response to recent threat 
streams and incidents. The President's budget supports CWMD's efforts 
to mitigate security vulnerabilities, and includes $75 million for the 
acquisition and deployment of nuclear, chemical, radiological, and 
biological systems to support operational customers, including enhanced 
Radiation Portal Monitors and other programs to support scanning of 
cargo entering the Nation. In addition, it includes $65 million for 
capability building, including outreach efforts necessary to ensure 
Federal, State, local, Tribal, territorial, and international partners 
are enabled to support the WMD detection mission.
    The President's budget recognizes that homeland security is central 
to economic security. It would provide funding to ensure DHS components 
are able to facilitate lawful trade and travel, mitigate threats, hold 
violators accountable, counter foreign economic aggression, and advance 
America's economic interests. For instance, the Department is focused 
on maintaining a level playing field for the $2.4 trillion dollars of 
imports crossing our border each year, which is why the President's 
budget includes funding to enhance the Automated Commercial Environment 
(ACE) and to put more attention on high-risk imports while facilitating 
smaller, legitimate shipments more quickly. The request also includes 
funding for additional attorneys, trade specialists, and financial 
specialists to provide adequate support for trade facilitation and 
enforcement activities.
    The men and women of the U.S. Secret Service (USSS) also protect 
our Nation's financial infrastructure, and the fiscal year 2019 budget 
supports the USSS in its use of advanced technologies and task force 
partnerships to enforce counterfeiting laws and to safeguard the 
payment and financial systems of the United States from financial and 
computer-based crimes. The agency also protects our highest elected 
officials, visiting foreign dignitaries, select Federal facilities, and 
major events. The request would allow for an additional 450 USSS 
agents, officers, and professional staff and would fund critical 
protective infrastructure and technology upgrades.
    Last year our country experienced one of the most costly and 
damaging seasons for natural disasters in recent history. DHS is 
committed to helping our communities in the wake of these catastrophic 
events, and FEMA will devote the resources and attention needed--in 
cooperation with State, local, Tribal, and territorial governments 
across the country--to ensure we recover. The President's budget 
supports the DRF, which sustains FEMA's response and recovery efforts 
and funds a variety of Federal assistance programs that enable State 
and local governments to prevent, protect, respond, and recover from 
incidents of terrorism and other catastrophic events. The budget also 
focuses on other efforts that will help create a ``culture of 
preparedness'' Nation-wide and make our Nation more resilient to 
disasters.
    The 2019 President's budget is committed to ensuring that every 
American dollar is spent wisely, and DHS continues to identify 
efficiencies to meet this goal. The budget funds the construction of a 
new headquarters building for FEMA at the St. Elizabeths campus, which 
will consolidate a wide range of DHS entities in a common location when 
complete. This will not only foster integrated decision making and 
collaboration, but it will provide for more efficient use of shared 
resources across the Department, while also reducing the Department's 
rent costs.
    Ultimately, the President's fiscal year 2019 budget request 
recognizes current fiscal realities, as well as the persistent and 
evolving dangers we face. We have outstanding men and women working at 
DHS committed to protecting our homeland and the American people. You 
have my commitment to work tirelessly to ensure that they are equipped 
and empowered to do their jobs. And I appreciate your support in doing 
so.
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS. I remain committed to working with 
Congress, and I look forward to forging a strong and productive 
relationship to secure our homeland.
    I am pleased to answer any questions.

    Chairman McCaul. Thank you, Madam Secretary.
    I now recognize myself for questions. First, let me just 
say this committee passed a historic border security bill 
providing $38 billion in funding for the wall, technology, 
personnel, joined Chairman Goodlatte and his legislation to 
close legal loopholes. But I think before we get to that, I 
think you have to justify that need, it is important to look at 
the threats that we face from the Southern Border.
    Your predecessors, both General Kelly and Acting Secretary 
Duke, talked about transnational criminal organizations 
providing a potential means for transferring weapons of mass 
destruction to terrorists. There are reports today that this 
caravan is on its way to Tijuana. Can you tell us a little bit 
about the threats that we face as a Nation and why border 
security is so important?
    Secretary Nielsen. Yes, sir. So I think the way to think 
about it is any threat that we face as a Nation, if it can and 
will--if I can get across our border, our adversaries will do 
all they can to bring it across the border.
    So what we look at is everything from drugs to the 
transnational criminal organizations you mentioned to smugglers 
and traffickers who smuggle all kinds of illicit things, not 
just people, but weapons, potentially weapons of mass 
destruction, other illicit technology. They avoid our trade 
regulations putting our economic prosperity at risk. We see 
increasing violence on the border.
    I would also point out that we have seen ISIS in written 
materials encourage ISIS followers to cross our Southwest 
Border given the loopholes that they also are aware of. So we 
have a multitude of threats. We have emerging threats as you 
know. We are probably likely to talk about UAS at some point 
today. But UAS is yet another form of threat that we are 
beginning to see more and more at the Southwest Border.
    Chairman McCaul. Yes. I recall being briefed on ISIS sort-
of bragging about the ease with which it would take to bring a 
weapon of mass destruction into the United States. I have to 
take that seriously as they appear to be warning us of their 
intentions.
    When we talk about closing legal loopholes, you know, the 
first bill I ever filed in Congress 14 years ago was to end the 
catch-and-release program, and here we are 14 years later still 
dealing with this problem. I am very frustrated as I know you 
are. Can you tell me why this is so important?
    Secretary Nielsen. I can. So the way that I think about 
this is in terms of home security. If you have an alarm in your 
home and you catch a burglar and you call the police and the 
police come, and in fact it is an illegal entry into your home. 
But the police then tell you that they have absolutely no 
ability to detain or remove those criminals, and the criminals 
stay in your house, you would not tell me that is home 
security. That is what we face at the border.
    We stop people, we interdict them, but we do not have the 
authority given the loopholes in many cases to detain and 
remove them. We are forced to release them back into the 
communities after they have committed crimes.
    We have eliminated the administrative use of catch-and-
release, which was popular in the last administration. We do 
all we can to enforce the rules that you have passed. But given 
some of the court cases and some of the legal loopholes, we are 
unable to do that in all cases.
    Chairman McCaul. I think to most Americans, they just do 
not understand that, how that could possibly--you can detain 
but you cannot deport them, and then they get released into our 
society in the United States. This so-called described caravan 
as I understand it maybe already in Tijuana. In your opinion, 
if they cross into the United States, which is their full 
intention, what will you be able to do?
    Secretary Nielsen. Well, I think we have made quite clear--
first of all the attorney general has made quite clear, we have 
a zero tolerance for illegal entry. But we have advised in 
every way we possible, that we are aware of, to let those 
participating in this so-called caravan know that participating 
in a caravan does not give you any additional legal rights.
    If you illegally enter our country, you will be referred 
for prosecution. If you file a false asylum claim, you will be 
referred for prosecution. If you aid and abet or coach someone 
to break our laws, you also will be referred for prosecution. 
So we are very clear about this. We will enforce our laws. It 
is an unfortunate situation that there is a belief that by 
coming in groups, it affords you some sort of legal protection 
that is not otherwise afforded under our law.
    Chairman McCaul. Well, my concern is with the legal 
loopholes, which is really Congress' role to act. Under Article 
I we have the authority under the Constitution to pass 
immigration laws. If we fail to act on these legal loopholes, 
my concern is they will be released.
    You will have the same problem with this caravan. Once they 
come to the United States, they will be detained and then 
released into our society, and that is Congress to blame, Madam 
Secretary, not you. That is why it is imperative I think 
Congress act on this bill that we have before us.
    My final question has to do with aviation security. As you 
have received the threat briefings, I can say everyone on this 
committee has received the threats to our aviation sector, the 
briefing involving computer laptops and poisonous gases.
    I think I speak for everybody on the committee, we are very 
alarmed by this. We want to do everything in our power to make 
sure the American people are protected on flights, both 
domestic and international.
    We appropriate in the omnibus $65 million to move this 
forward. We will complete that full appropriation September for 
300 CT machines so that your men and women can properly screen 
at airports to protect Americans from explosive devices that 
may not be seen today.
    My question is how quickly how can these machines be 
deployed? Then finally, I think the highest risk are the last-
point-of-departure airports, coming in from Istanbul and Cairo 
and Riyadh and places I have been to where the airport security 
is not as good as ours. What is your plan to make sure this 
technology is also at those last-point-of-departure airports?
    Secretary Nielsen. As you said in your opening statement, 
sir, unfortunately, the terrorists continue to see this as a 
crown jewel if you will of attack vectors. We also remain very 
concerned about aviation security, and in particular how 
quickly the adversary is advancing tactics and techniques and 
weaponry to bring down an airplane.
    So the CT machines, we thank you for your support. They are 
critical in our--very critical in our ability to detect these 
emerging threats. As you know we are testing the machines as 
well as the algorithms that go with them that enable us to 
detect these new threats this summer. We look forward to the 
appropriation in 2019 so that we can in fact cover down over 
the United States in terms of protecting Americans here.
    Last points of departure are another type of threat area 
that obviously a plane comes from a last point of departure to 
the United States. What we have done there is, you know, last 
year we substantially raised the bar in aviation security 
across the world. We have a tiered plan. We continue to work 
with countries to encourage them to adopt the CT technology.
    In exchange for that, we pull back on other requirements 
that we have levied on them. So we have tremendous outreach 
occurring. I met with my G7 security ministers Monday/Tuesday. 
We talked about this again. We talk about this almost in every 
way we can. But you are exactly right to highlight the threat 
and we will continue to focus on it.
    Chairman McCaul. Well, thank you. I think it is one of the 
biggest threats that we face from the terrorists today. It is a 
spectacular event that they like to talk about, not a one- to 
two-man operation or a vehicle assault. It would be a major 
event that we want to do everything we can to work with you to 
make sure it never happens. So thank you for being here.
    I now recognize the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Madam Secretary, one of the oversight responsibilities we 
have with DHS is to kind-of see whether or not things are going 
according to the wishes of Congress and this committee. To that 
extent, there are a number of policy deliverables that are 
outstanding from the Department at this point, and I am going 
to go through the list and try to get some idea on when we will 
receive them.
    The Quadrennial Homeland Security Review was due December 
31, 2017. Do you have any idea when we might get that document?
    Secretary Nielsen. Yes, sir, I believe we have coordinated 
with this committee as well as your sister committee on the 
Senate side to work through the best way to present that 
information.
    We want to make sure that it is part of a larger National 
security strategy, counterterrorism strategy. As you know, we 
have other strategies that are due at the Department. So the 
idea is to get the timing right so that they actually work in 
parallel and we do not have one that then is not consistent 
with another due to timing restrictions. So happy to come brief 
you further on the progress and how that nests into many of the 
larger requirements that we have.
    Mr. Thompson. Madam Secretary, it is the law.
    Secretary Nielsen. No, I understand, sir. So we have worked 
with you on the timing, but I am happy to come brief you, as I 
said, specifically on that.
    Mr. Thompson. So you do not plan to follow the law on 
delivering the report? I mean that is all I am asking. It is 
due. To say you coordinated, that is all right. But it is the 
law you have to produce the report.
    Secretary Nielsen. Respectfully, sir, I did not say that I 
would not follow the law. What I did say is that we are working 
on it. We have told you what the timing is, and I am happy to 
come brief you further if you would like.
    Mr. Thompson. Well, I am not necessarily looking for a 
briefing.
    Secretary Nielsen. OK.
    Mr. Thompson. I need from you, very simple, when you plan 
to follow the law to present----
    Secretary Nielsen. We will get back to you.
    Mr. Thompson. Beg your pardon?
    Secretary Nielsen. We will get back to you.
    Mr. Thompson. Well, will you get back to us in writing?
    Secretary Nielsen. If you would prefer that instead of a 
briefing, happy to do that.
    Mr. Thompson. I would absolutely prefer it in writing. We 
have also a Department-wide cybersecurity strategy that was due 
March 23, 2017.
    Secretary Nielsen. Yes. So we were out at the RSA 
conference last week. We spent quite a bit of time talking to 
stakeholders to finalize that as a last very important effort 
to make sure that we had stakeholders involved. We will have 
four pillars of that strategy. We are looking to identify the 
risks, to reduce threats, reduce vulnerabilities, and mitigate 
consequences. We also have it based on five trends----
    Mr. Thompson. I appreciate that, but when can we as Members 
of this committee receive the written report----
    Secretary Nielsen. Shortly.
    Mr. Thompson. That is outstanding?
    Secretary Nielsen. Shortly, the strategy is--sir.
    Mr. Thompson. A week, 2 weeks? A month?
    Secretary Nielsen. It should be within the next 2 weeks, 
yes sir.
    Mr. Thompson. Within the next 2 weeks.
    Secretary Nielsen. Yes.
    Mr. Thompson. Thank you. Now the long-awaited update plan 
for the Department's major headquarters consolidation project, 
it was actually due August 27, 2016. When do you anticipate 
getting that to us?
    Secretary Nielsen. That one I will have to get back to you, 
sir. I am not as familiar. I know we continued to be in 
discussions. As you know we have had some funding issues as 
well as some construction delays given the historic nature of 
the property. So I will get back to you on the timing of that.
    Mr. Thompson. Well, thank you. Those three reports, if you 
would provide in writing the status updates and when we can 
expect them, I would appreciate it.
    With respect to Hurricane Maria, are you satisfied with 
FEMA's response to Hurricane Maria as it relates to Puerto Rico 
and the Virgin Islands?
    Secretary Nielsen. Well as you know it is not over yet. 
FEMA will continue to provide recovery services under its 
statutory mission until they are complete. We continue to work 
very closely with the Governor and the government officials, 
mayors in the case of Puerto Rico.
    We can always do more. It was a very difficult situation as 
you know given, especially in Puerto Rico, the status of the 
infrastructure before the storm. FEMA prepositioned more than 
it ever had before. We had many people there in conjunction 
with our interagency partners, and we are going through the 
formal lessons learned process now. But recovery is on-going so 
we should have the findings from the initial response shortly.
    Mr. Thompson. So your testimony, you are not satisfied with 
it or you are?
    Secretary Nielsen. It was a big storm, sir, I think FEMA 
went above and beyond in performing its statutory mission, but 
we always learn lessons and we always make it better for next 
time.
    Mr. Thompson. What systems have you put in place so that 
whatever shortcomings occurred with Hurricane Maria will not 
occur again?
    Secretary Nielsen. One of them is the administrator is 
deploying Federal integration teams. The concept here is to 
send steady-state people out into the field who are experts in 
incident management preparedness prevention mitigation to help 
different areas and jurisdictions be able to prepare for an 
event.
    So what we are trying to do at this point is push resources 
to left of the event. As you know, recent studies have shown 
for every dollar of mitigation we save $6 in--excuse me, $1 in 
prevention and mitigation we have $6 saved in terms of response 
and recovery. So what we are doing is relooking at all of our 
systems so that we can build those cultures of resilience and 
preparedness.
    Mr. Thompson. Thank you. Madam Secretary, on January 16, 
you testified before the Senate that 90 percent of unoccupied 
alien children released never show up for court. Can you 
provide this committee with how you came up with that 90 
percent figure?
    Secretary Nielsen. Sure. When we encounter a UIC, we 
register them. As you know, we, at the Department, turn them 
over to the Department of Health and Human Services. So we have 
the numbers, then we----
    Mr. Thompson. Well, what I am saying in writing?
    Secretary Nielsen. Oh, OK. Sure.
    Mr. Thompson. I yield back.
    Chairman McCaul. The gentleman yields.
    Chair will recognize Members who were present at the start 
of the hearing by seniority on the committee according to the 
rules.
    The Chair now recognizes the gentleman from New York, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your testimony here today 
and thank you for your service. I have basically two questions. 
I will ask them together so you have more time to answer them.
    First is on the issue of grants, Homeland Security grants. 
I live right outside New York City. New York City, Nassau and 
Suffolk, Westchester County are the No. 1 terrorist target in 
the country by all accounts. There is more than well over 1,000 
police officers work full-time on counterterrorism and 
intelligence.
    We have subways carrying over 5 million people a day, a 
thousand entrances and exits. We have commuter lines, Long 
Island Railroad and Metro North with hundreds of thousands 
more. Yet in the budget, your--grants are being cut--grants are 
being cut.
    To me, and you have maybe some other alternative plans, but 
the fact is these police departments and these fire departments 
and these emergency service units in these locales, and I am 
not disparaging any other part of the country. They can fight 
and they need it too. But yet we have been attacked many times, 
twice just in the last 6 months. There has been over 20 
attempted attacks against New York besides the two attacks on 
the World Trade Center.
    So I would just, again, ask you to reconsider and look at 
how that money is being distributed and why we have cuts at a 
time like this when, again, in many ways the threats are more 
than they were before 9/11. They may be not at the same 
magnitude as 9/11, but as far as numbers and the metastasizing 
of Islamic terrorists, there is more threats today than there 
were then. That is my question is on that, an easy one.
    Second one is on MS-13. MS-13 is to a large extent focused 
on my district. We have had over 25 murders in the last 2 
years. They are right now digging for bodies within a mile of 
my house. This goes on continuously. But let me commend both 
HSI and ICE for the work they are doing. They are working very 
closely with the local police, with the local district 
attorneys, with the FBI. So progress has been made.
    But one of the deficiencies we have, and this is not really 
your Department's responsibility, but I think you have a say in 
this. This is on the question of the unaccompanied minors. It 
was brought to my attention last year both by Federal 
intelligence and also local police that many of these minors 
who come across, I do not say many, maybe 5 or 10 percent, 
whatever the number would be, are actually sent here by MS-13 
in El Salvador.
    When they come to the border, they are apprehended by the 
Border Patrol but then turned over to HHS, and then HHS places 
those kids with families around the countries. A 
disproportionate amount are going to Brentwood and Central ICE 
up in my district.
    Intelligence, as I understand, is showing that the families 
who are asking for these kids are either in many cases or too 
many cases are either supporters of MS-13 or they have 
relatives back in El Salvador being threatened by MS-13. In the 
most recent murders, of the 11 people indicted for the murders, 
6 of them were unaccompanied minors that came across the border 
within the last 2 or 3 years.
    When I talked to the school superintendents, they talk 
about how the unaccompanied minors, a number of them are 
recruiting within the schools. Yet, HHS, the Office of Refugee 
Resettlement does very little as far as notifying the local 
police when these children, unaccompanied minors are being 
placed in the community.
    I would ask if you will get the administration to work with 
HHS and your own Department to better coordinate this so the 
local police are told who these kids are, where they are coming 
from. Also a better job of vetting the families that they are 
being placed with, and also a better job of vetting the 
families they came from. So those are my two questions. Thank 
you.
    Secretary Nielsen. Thank you, sir. As you said, our grants 
are not an easy conversation. The way we are looking at this, 
and we would love to work with you further, we have put out, as 
you know, about $50 billion in grants since 9/11.
    The idea there was to help State and locals build capacity 
to threats that they had not necessarily had to address before. 
It was very important at that time to make sure that the State 
and locals had what they needed to protect their communities.
    As the threat environment quickly changes, what we are 
trying to do is find ways to have grants, not just maintain and 
help State and locals continue the capacities they have built, 
but enable them to focus on the new and emerging threats. So 
what this budget proposes is a new $525 million program, 
preparedness program, to focus on emerging threats.
    So it is not--I understand the question, but I just want to 
make the point. What we are trying to do is use the grants 
holistically in a way that we can cover down on the known, the 
threats that we know we have, but also the threats that are 
emerging. So it is important----
    Mr. King. I was just saying that the threats--I realize 
there is new threats, but again, large amounts of this money 
are spent on surveillance, on programs which are on-going, the 
threat is on-going.
    It is not as if that you always need new equipment. 
Sometimes they do. But it is also they have to have the 
training and the constant work that goes on. When you have 
1,000, 1,500 working on it, and they are working full-time, you 
know, whether or not the threats changed, those 1,000 or 1,500 
still have to work.
    Secretary Nielsen. Yes. So we need to balance the 
maintenance and sustainment with the idea of the grants to 
begin with, which is to build capacity, to build new threats. 
But I did want to just take a few minutes to answer your other 
question.
    MS-13 does continue to be a problem as you know better than 
most in this room given the violence that has occurred in your 
area. Through Operation Matador and others, as you say, HSI 
does play a very active role.
    We continue to work very closely with our colleagues at the 
Department of Justice to attack this from a network perspective 
which means going all the way back to where they are 
originating, watching their travel patterns, attempting to stop 
them at the border of course. But should they enter, make sure 
that we understand where they are and where they are headed.
    Happy to work with HHS to make sure that that referral 
process works better and more effectively. I would also say 
that one of the loopholes that I often talked about is that 
fact that we cannot based on gang affiliation alone prohibit 
somebody from entering the United States. It is not a legal 
criteria in and of itself for inadmissibility. So we also need 
to look at inadmissibility and removability when it comes to 
gangs, that we can make sure we can remove them.
    The final point I would say on the UACs, we are working 
with HHS to better vet the sponsors and the family members so 
that we can understand where the children, for the children's 
safety, are going and who will take care of them. But also so 
that we can identify other issues that might occur.
    As you say, we see recruiting from the gangs in New York 
all the way down to Central America, and we see the push from 
Central America to send UACs who are gang members into the 
United States.
    Mr. King. Again, let me emphasize that Homeland, HSI, ICE 
are doing an excellent job working with the FBI and local 
police in----
    Secretary Nielsen. Thank you, sir.
    Mr. King. Nassau and Suffolk. Thanks.
    Chairman McCaul. The gentleman yields.
    Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much, and 
thank you for this hearing along with the Ranking Member.
    Let me welcome you, and I do not often make this comment, 
but I think the Ranking Member made a point that I quickly want 
to say, and that is that I had the tragic privilege of being on 
this committee shortly after--the beginnings of this committee 
shortly after 9/11, and was able to go to Ground Zero during 
the long extended period of the recovery of remains. So there 
is nothing more precious than the security of this Nation, and 
I think it is bipartisan.
    I do want to acknowledge Tacala and Madison; I brought them 
here today. They are Take Your Daughters to Congress, and they 
are in the room today, and I wanted to acknowledge them.
    I am going to put a series of questions on the record and 
then I am going to ask which ones that I would like you to do 
in writing or I will indicate. I want you to tell me how many 
African Americans do you have in your immediate circle of 
staff. I do not see any in the room that seem to be with you 
today. So I would be interested in that and your efforts on 
that.
    As it relates to the wall, I would be interested in knowing 
whether Mexico is going to pay for the wall, and so how the 
wall is going to proceed, as well as the 4,000 National Guard. 
You mentioned, and certainly I want to respond to the assaults 
on Border Patrol agents. I think we should respond to that in 
whatever recommendations that you may have.
    But the 4,000 National Guard as I understand it coming from 
Texas being on the border, they will be unarmed and I see no 
way that they will have an impact on the protection of Border 
Patrol guards that are there now, and so what is the purpose of 
the 4,000? Did you have input into that selection?
    We know that there is a recent court decision that indicts 
that the DACA structure right now and the President's removal 
of DACA status is illegal, and frankly, there has been no 
placement. We have a number of bipartisan bills to be put on 
the floor.
    Would you and the President ask and demand that Paul Ryan 
put these bills on the floor for us to be able to vote for 
them? Then secondarily, would you instruct your Border Patrol 
agents to not treat DACA-eligible and/or DACA-status 
individuals unfairly at the border by stopping them at the 
border and not allowing them to come back and forth?
    The other question is that I have been working extensively 
on a young man from El Salvador who lived in this country more 
than half of his life, two American children, citizen wife, 
manager of a paint store.
    I have repeatedly asked the Homeland Security Department to 
address the question of Jose Escobar who was, I would say, 
duped into doing what he always does, is reporting to the ICE 
office and precipitously being deported to a place that he has 
no knowledge of. We have not gotten one answer regarding the 
ability for him to have humanitarian parole to come back to 
this country and to address his status because he is DACA-
eligible.
    TSA is in definitive need of retention programs and salary 
programs because in your major airports, and I do not know if 
you have been to all the major airports, there is a constant 
rotation or departure of TSOs and that needs to be fixed.
    FEMA needs to be fixed in terms of bifurcating recovery as 
opposed to rescue. In Houston, the reimbursement, and I want to 
thank FEMA and their staff, they are dedicated persons, but 
reimbursement monies have not yet come to schools and other 
facilities and people in desperate need.
    Two other points: Domestic terrorism, the Mark Anthony 
Conditt did kill other people in Austin but he also killed two 
African Americans initially, and I think it was appropriate for 
many of us to think of his inclination and call it domestic 
terrorism. We heard nothing from the Department of Homeland 
Security.
    Finally, the President has gone to Mar-a-Lago 1 day out of 
every week that he has been President, and 110 times he has 
played golf. I want to know your response to the Secret 
Service's long hours.
    So let me ask you to answer the African American question, 
all the others I want in writing. The TSA retention question 
and the domestic terrorism, and you can just do quick 
sentencing. Secret Service in terms of payment and the 
responsibility of taking Secret Service to these joyful places 
and the long hours that they have to do. TSA retention----
    Secretary Nielsen. TSA----
    Ms. Jackson Lee. Are you working on that?
    Secretary Nielsen. Yes, ma'am. That is a very--throughout 
the Department, as you know, we do have some attrition problems 
that remain. It is a priority of mine as part of maturing the 
Department to become much more innovative. So we are looking at 
mobility programs.
    Ms. Jackson Lee. I am going to let you----
    Secretary Nielsen. OK.
    Ms. Jackson Lee. Go quickly. Domestic terrorism.
    Secretary Nielsen. Domestic terrorism, we have created an 
Office of Terrorism Prevention partnerships as you know to take 
very seriously all forms of terrorism in this country and work 
on----
    Ms. Jackson Lee. Did you speak about the incident in 
Austin, Texas in terms of potential of being domestic 
terrorism?
    Secretary Nielsen. I can speak to it only to say we are 
working with State and local law----
    Ms. Jackson Lee. If you had anything in writing on that, I 
would appreciate it. I just want to go forward. Mr. Escobar, 
would you look up Mr. Escobar? I have joined a bill with Mr. 
Green asking for him to be able to return. But more importantly 
this can be handled administratively by Homeland Security. Will 
you look at the point of Mr. Escobar from Houston, Texas?
    Secretary Nielsen. We will look at the case, yes.
    Ms. Jackson Lee. Secret Service and the many trips of the 
President to places beyond Camp David, which is an 
appropriately beautiful place, and the extra hours and the 
tiredness of Secret Service and the need for extra staff. How 
are you handling that burden?
    Secretary Nielsen. We are working on hiring initiatives. We 
are working on cross-training. We thank Congress for recently 
passing a bill that allows the Secret Service to be paid 
overtime. That will help very much with attrition and morale. 
We also in that case are looking to cross-train and give them 
more ability to move within the Secret Service to reduce some 
of the burden that they have.
    Ms. Jackson Lee. African Americans in your staff?
    Secretary Nielsen. I do not have the exact number in front 
of me. We do have diversity programs. We take that very 
seriously. Happy to get you specifics on that.
    Ms. Jackson Lee. Do you have any on your immediate staff?
    Secretary Nielsen. My immediate staff is rather large, but 
I do not know.
    Ms. Jackson Lee. In your office?
    Secretary Nielsen. In the personal front office, we do not.
    Ms. Jackson Lee. All right. All the other questions I would 
appreciate it if you would more extensively answer in writing, 
and I do want to just conclude by emphasizing the treatment of 
DACA status individuals.
    What is the Department's position since most courts have 
indicated that DACA is a legitimate status to indicate to your 
employees that they should not be treated precipitously and 
disrespectfully and detained, which is what is happening?
    Secretary Nielsen. We are complying with all court orders. 
So what that means is if you are a currently-registered DACA 
recipient, you will not be deported. If you have applied for 
recertification as a DACA individual, you also will not be 
deported.
    Ms. Jackson Lee. And you will take new applications?
    Secretary Nielsen. We are not taking new applications right 
now, no, ma'am.
    Ms. Jackson Lee. All right. If you could give me answers to 
all the rest including why you are not taking new----
    Secretary Nielsen. It is not required at the moment so----
    Ms. Jackson Lee. It----
    Secretary Nielsen. As you know we ended the program because 
it was an inappropriate--an inappropriate use of Executive 
power.
    Ms. Jackson Lee. I understand. If you could just put that 
in writing since the courts have indicated your ending of the 
program was incorrect, why you are not taking new applications.
    Secretary Nielsen. OK. So just to be clear, though, the 
courts have not said that. What the courts have said as of 
recently in the last couple days is they have asked the 
Department within 90 days to come and provide them additional 
information. Should they find that that information is not 
sufficient, they reserve the right to take additional action. 
No court has ordered me to allow new DACA recipients.
    Ms. Jackson Lee. I disagree with you, but I would prefer if 
you would submit that to me in writing along with the other 
questions that I did not specifically get.
    I thank the Chairman and the Ranking Member. I yield back.
    Chairman McCaul. The gentlelady's time is expired.
    The gentleman from Alabama, Mr. Rogers, you are recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here and thank you for 
your service to our country.
    On a parochial note before I get to my questions, I want to 
personally invite you, now that you are settled in, to come and 
visit the Center for Domestic Preparedness in Alabama.
    As you know, it has done a stellar job since 9/11 in 
training first responders all around the country, hospital 
personnel. It has the only live agent training facility for 
biological and chemical agents. So I think you would find it 
interesting. The last Secretary to be there was Janet 
Napolitano, and I am sure you will be as impressed as she was.
    But in your written testimony you stated that, 
``Investments in our layered defense at the border would 
include 65 miles of new border wall construction in the highest 
traffic zones along the Southwest Border.''
    Yesterday, we had the CBP commissioner testify before the 
Transportation Security Subcommittee, and he talked about in 
addition to the wall itself, the importance of technologies 
associated with it to give us situational awareness at those 
borders. Can you describe for us what you see as your idea of a 
border wall system, and meaning not just the wall itself, but 
what would that system be compromised of?
    Secretary Nielsen. Sure. So a border wall system is the 
infrastructure which is important for the impedance and denial 
capability. It is in the technology, which among other things 
helps us with the domain awareness, situational awareness. It 
is the sensors technology. It is also at the ports of entry, 
the non-intrusive technology that helps us detect drugs and 
illegal entrants.
    It is personnel, mission readiness, and making sure we have 
a work force who is trained. The last is access and mobility, 
so it is very important that the Border Patrol is able to get 
to parts of the wall where there are areas--parts of the border 
where there is a wall or there is not a wall to be able to 
interdict. So it is a combination of all of those things.
    Mr. Rogers. Have you been able to ascertain what percentage 
of the cost associated with the border security system is 
actually the wall, and what is the rest of that system that you 
just described? Which is substantial, the technologies and 
personnel are substantial.
    Secretary Nielsen. Yes, in fact, we had asked for $1 
billion alone for some of the technology when we were talking 
about the $25 billion total number for the wall system. I can 
get back to you on that. It changes, frankly, as we work with 
Congress and we are appropriated money.
    Then as you know in the last omnibus bill we had some 
specific restrictions on how we could build the wall and where 
we could build it. So we are reprioritizing and reorganizing 
some of those funds that were given to us by Congress. So happy 
to give you specific figures.
    Mr. Rogers. Yes, I would like to get a proportion----
    Secretary Nielsen. Happy to.
    Mr. Rogers. Because, you know, one of the things that we 
have heard is a lot of the critics of securing the Southwest 
Border talk about the numbers being unreasonably high per mile 
for this wall, and in fact, we are not just talking about the 
wall or the fencing itself. We have to help people understand 
that there is a lot more that goes to it than just putting that 
fencing up, or whether it is see-through or concrete or 
whatever at different points.
    Let me ask this, do you feel like you have enough money 
right now to take on that challenge and secure the Southwest 
Border in its entirety?
    Secretary Nielsen. Not in its entirety, no, sir. So our 
goal is operational control of the border, that would have 
those master capabilities I mentioned. We do not yet have 
funding to secure the whole border.
    Mr. Rogers. Well, one of the things that my friend and 
colleague from Texas, Ms. Jackson Lee, requested information 
about a little while ago was whether or not Mexico or South 
America is going to help pay for the wall.
    One of the things I would draw to your attention if you are 
not aware of it is a bill I introduced called the Border Wall 
Funding Act, which would assess a 2 percent fee on all 
remittances going to South America.
    It would generate right at a $1 billion a year, half of 
that coming from Mexico, the other half from the other South 
American countries where most of these illegal aliens who are 
coming to our country are leaving, which would in fact require 
Mexico to pay for at least half of the wall.
    Now granted it is a billion a year, it would not do it all, 
but I hope that you all will look at embracing that as one of 
several funding mechanisms to get us the money we need to 
secure that wall. You also in your testimony said, ``Some 
critical missions are impeded by jurisdictions that refuse to 
cooperate with DHS on enforcement of Federal law.'' I think you 
are talking about sanctuary cities there?
    Secretary Nielsen. Yes, sir.
    Mr. Rogers. Can you tell us briefly what kind of added 
expense do you encounter when you have to go into an area that 
is a sanctuary city or a county and they refuse to cooperate?
    Secretary Nielsen. I will get you the figures, but it is 
additional use of technology. It is certainly an additional use 
of manpower. It is additional planning, additional 
contingencies that are built in.
    But in essence what it requires us to do is rather than 
being able to take the criminal in a safe environment, which 
would be the jail, we then require our agents to go out in to 
the community putting themselves at risk but putting the 
community at risk to be able to interdict, yet again 
unfortunately, that criminal to be able to remove them.
    Mr. Rogers. Well, if we can get our heads around that added 
cost, I want this committee to consider legislation that would 
force those sanctuary cities to reimburse the Department for 
those added expenses that they are imposing on you.
    With that, my time has expired. Thank you very much, Mr. 
Chairman, I yield back.
    Chairman McCaul. Gentleman yields back.
    The gentleman from Massachusetts, Mr. Keating, is 
recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Madam Secretary for being here. You said in your 
opening remarks that you are trying to create a culture of 
preparedness. In response to Congressman King's questioning, 
you said you want to build up a greater capability for emerging 
threats.
    You know we will never know where the emerging threats may 
come from with surety, but we are pretty sure we know where the 
response to those threats are coming from. Those responses are 
coming from our front line. In fact, in my years here on the 
committee, I often ask, you know, what is the important aspect 
to our homeland security, and the answer almost always is our 
front-line responders.
    That being said, this budget does not reflect that 
commitment to preparedness at all in terms of those responders. 
There is cuts to the State, the Homeland Security Grants that 
States like Massachusetts, my State, use of $157 million, the 
Urban Area Security Initiatives, which were so critical in the 
Boston Marathon bombing and the response in cities like New 
York, cut $180 million.
    The Transit Security Grants which is a target of great 
concern given what has happened in other parts of the world 
were cut $64 million. The Emergency Performance Grants, $70 
million. The funds to our local fire departments, front-line 
responders have been cut. So if you could, tell us how cutting 
this kind of funding helps America be safer?
    Secretary Nielsen. Yes, sir. So grants are part of a 
holistic approach to help State and locals prepare as you know. 
So as I mentioned earlier, it was actually the National 
Institute of Building Sciences that released the report. But $1 
on the front end saves us $6 on the backend. So that is what we 
mean by culture of preparedness. It is capacity building. We do 
a lot of that through programs that are a direct distribution 
of funds.
    We help with exercises, we help with training. We do have 
money in the budget for equipment through our CWMD office to 
provide detection and training for those particular threats. We 
have money in the budget for NPPD to help State and local 
officials as well as critical infrastructure owners and 
operators in cybersecurity. We continue to invest in--to 
provide additional----
    Mr. Keating. No, I understand that, Madam Secretary. But, 
you know, why are you cutting where we know with certainty the 
response is coming from?
    Secretary Nielsen. So I----
    Mr. Keating. Those are wonderful things.
    Secretary Nielsen. Yes.
    Mr. Keating. But----
    Secretary Nielsen. But those do that. The----
    Mr. Keating. But these are the first responders----
    Secretary Nielsen. Right. But that is what the----
    Mr. Keating. That are going to be there.
    Secretary Nielsen. That is what all those programs do. They 
help local communities and first responders be ready to 
respond.
    Mr. Keating. But these are tried and tested.
    Secretary Nielsen. Exercises and training.
    Mr. Keating. And save lives.
    Secretary Nielsen. Yes, they are.
    Mr. Keating. Those things that I mentioned have all saved 
lives. So with a culture of preparedness with emerging threats, 
how is that greater? How are we safer with that?
    Those are critical monies to police, fire that they cannot 
do on their own. It includes regional kind of preparedness. So 
I will leave it with that. But I am concerned, and I think I am 
not alone on this committee on both of the aisle in terms of 
that concern because we have seen the effectiveness.
    If I could shift very quickly, one other area. President 
Trump in his private life, even though he is President, he 
continues in his private life and his private business life to 
take advantage of H-2B visas for his personal businesses. They 
are there for him. They are not there for everyone right now 
because of the demand.
    I represent a seasonal area where small businesses really 
rely on this. Under the Bush administration, they merely raised 
the cap. Under the Obama administration, they raised the cap 
several times in the past responding to this demand.
    But you have had the opportunity to deal with it, and the 
small businesses in my district are telling me that the way 
that rolled out last year, the regulations, the uncertainty, 
the burdens on a small business were so great that they did not 
even dare and they were being advised by their own attorneys 
even not to enter into it.
    Now could you tell us the time frame for acting on these 
additional H-2B visas? The clock is ticking and businesses are 
losing money. American jobs are being hurt by this because by 
not hiring a full complement of workers, they are closing down 
for weeks that they would normally be open. Days that they 
would be open. So it is hurting American jobs as well.
    Why if we are going to roll this out, why could not we just 
do what President Bush did, what President Obama did and just 
raise the cap on returning workers? Those are the safest 
workers. You do not see returning workers overstaying their 
visas. We have a problem with that in other visas.
    But these are people that have a history of working, by the 
way, paying into Social Security, and have a benefits that they 
are going to realize. Going home and then coming back. They are 
safe. This is tried and tested. This is common sense.
    Why cannot the Department simply have the cap raised on 
returning workers and deal with this in a timely fashion, and 
not leave so many revenues that would be important for our 
economy wasted and lost? Now, it does not affect the President 
but it is affecting people in my district. Could you----
    Secretary Nielsen. Yes, sir. So as you know we did raise 
the cap last year. I worked into----
    Mr. Keating. Yes, but excuse me. But----
    Secretary Nielsen. Yes.
    Mr. Keating. I told you what my businesses are telling me 
loud and clear. Many of them would not even take advantage of 
it because supposedly a pro-business friendly administration 
made it so uncertain and they would not even dare try. They 
just shut down for weeks. So----
    Secretary Nielsen. Sure.
    Mr. Keating. I know you did it last year. I am asking you--
--
    Secretary Nielsen. No, I----
    Mr. Keating. Not to do it the same way this year.
    Secretary Nielsen. Yes. So the reg is done. The reg 
actually was a result of talking to many Members who have a 
concern in their district, and the concern was that the visas 
were being given to those who are not seasonal workers. We 
unfortunately have seen an increase in fraud, so what the reg 
was meant to do was to get----
    Mr. Keating. Again, excuse me. But that is an enforcement 
issue. So the answer to better enforcement----
    Secretary Nielsen. No, no, no, it is not enforcement----
    Mr. Keating. Is these are better enforcement is not to 
scuttle the program, not to make it ineffective.
    Secretary Nielsen. Yes. Right.
    Mr. Keating. It is to do better in enforcement. You know, 
the clock is ticking.
    Secretary Nielsen. Yes, I would ask Congress to act. I mean 
I personally worked into the wee hours of night to try to get 
this addressed in the omnibus. It is Congress' job to legislate 
immigration. I have asked repeatedly for you to put the cap in 
law and for you to put in law that returning workers that come 
back----
    Mr. Keating. Excuse me, again, if I could amplify that.
    Secretary Nielsen. Sure.
    Mr. Keating. Eighty-nine Members, bipartisan Members that 
signed a letter asking the leadership to do that. Now they did 
not. They gave you the authority again as they did before. But 
within that authority, you still have the ability to do it. 
So----
    Secretary Nielsen. Yes. So the visas should be----
    Mr. Keating. So I am asking you to do it.
    Secretary Nielsen. The visas should be----
    Mr. Keating. And act in a timely way and a way that 
businesses can take advantage of this.
    Secretary Nielsen. I agree. There is no reason to have a 
visa program that puts Americans' businesses out of business. 
That is not the intention.
    Mr. Keating. Well----
    Secretary Nielsen. We are working, we should have it----
    Mr. Keating. If you could get back to me on that, I would 
really appreciate it. Thank you, Madam Secretary.
    I yield back.
    Chairman McCaul. The gentleman yields.
    Gentleman from Pennsylvania, Mr. Perry is recognized.
    Mr. Perry. Thank you, Mr. Chairman.
    Madam Secretary, you have a tough job, and we appreciate 
your service. I got four questions. I am going to try and ask 
them all, and there is a little narrative with each one for 
context, and then I am going to let you answer and try and be 
respectful of everybody's time.
    Some cases in the past including Iraqi refugees living in 
Bowling Green were arrested in 2011 and a Saudi immigrant 
living in Oklahoma arrested in February of this year 
demonstrate how individuals have been able to make it through 
DHS vetting despite being associated with terror groups.
    In both of these cases, derogatory information was then 
later discovered in DOD databases showing that the men in both 
cases were linked to al-Qaeda. Ensuring the battlefield data is 
available for DHS vetting is essential for Homeland Security.
    The question is essentially will the proposed National 
Vetting Center created by this administration in February of 
this year prioritize addressing this vetting vulnerability, and 
how you feel about that, if you think that is going to be 
adequate?
    Question No. 2, what is DHS doing to collect DNA from non-
U.S. persons being detained under the United States laws, 
understanding that there is a requirement that the collection 
of the DNA from detainees to send to CODIS for law enforcement 
purposes?
    Question No. 3, many Americans hope we end the catch-and-
release program, but it seems the current ICE parole policy is 
almost a definition of catch-and-release, and that parole 
policy is not codified in law. That was enacted under the last 
administration and can be un-enacted so to speak under the 
current administration.
    People with valid claims of asylum should receive it, but 
those who claim it unlawfully should not be paroled into our 
country where we rely on those individuals who were unlawful 
and dishonest to willingly reappear or appear at a hearing.
    Then question No. 4, I have the privilege of chairing the 
Oversight Management and Efficiency Subcommittee. As the name 
might suggest, one of the roles is to look into what sort of 
financial waste could be eliminated in DHS.
    In this Congress we have held hearings on the consolidation 
of St. Elizabeth's campus, integration and updating of 
financial systems for some of the components at DHS, which is 
currently, I might add, undergoing its fourth iteration and 
failure. Some of the cumbersome character fitness examinations 
processes that contractors undergo before they can work on some 
project.
    Here is the problem, ma'am, none of these things are 
particularly headline-grabbing topics. They are not real sexy. 
While I know that the country has, and you have much bigger 
fish to fry, they remain systemic problems year after year.
    I am just wondering, you know, let us just pick like--if we 
look at the individual disparate parts, they all seem to be 
doing their job and doing it fairly well, but the integration 
component where leadership is required to bring them together 
never seems to somehow come through.
    The question is this, does the agency have benchmarks in 
that regard for Congress to evaluate not only integration but 
some of these other problems and the successes? I stand ready 
to re-ask any of those questions if you have not gotten them.
    Secretary Nielsen. Thank you. In the National Vetting 
Center, the short answer is yes. That is exactly what it is 
created to do, it is to use both high-side information and 
information from our allies to help us continuously screen 
those who seek benefits. As you say, unfortunately, sometimes 
between the initial screening and the granting of a status or a 
benefit, additional information comes to light that would 
necessitate us changing the original determination. So----
    Mr. Perry. We know it is hard to be perfect. But we----
    Secretary Nielsen. Yes. No, that is not----
    Mr. Perry. We want to strive for that, right?
    Secretary Nielsen. You know, we continue to expand so 
called HSPD-6 agreements, which is an agreement with a foreign 
country to provide known and suspected terrorist lists. We have 
over 60 now. We continue to work with all of our allies to 
implement the U.N. Security Council 2396, which as you know 
would include that transmission of, you know, passenger name 
record information.
    The second one, the DNA. So yes, it is required in law, but 
as you also know, a waiver was signed between then-Attorney 
General Holder and then-Secretary Napolitano exempting most of 
DHS from that.
    Mr. Perry. But don't we want to side on law enforcement and 
collect that DNA while we have those people? I mean I know 
there is a waiver, but shouldn't we----
    Secretary Nielsen. Yes. So we are working with the attorney 
general currently to form a pilot to start doing that, to start 
collecting the DNA so that we do have----
    Mr. Perry. When do you have an expected start date?
    Secretary Nielsen. We are working on the pilot right now, 
so I can get back to you----
    Mr. Perry. Oh, the pilot is occurring right now?
    Secretary Nielsen. Yes, sir. Well, we are in the planning 
stages and we are doing it in batches. So as you know, some of 
it is the processing, we want to make sure the chain of 
custody. And----
    Mr. Perry. OK. Yes.
    Secretary Nielsen. But, yes, happy to get right back to you 
on that.
    Mr. Perry. I want to keep the conversation open on that.
    Secretary Nielsen. You got it.
    Mr. Perry. All right?
    Secretary Nielsen. The third one, ICE parole. So we have 
eliminated what we call administrative catch-and-release, which 
I believe is what you are talking about.
    Mr. Perry. So you come and you claim a credible fear, 
right?
    Secretary Nielsen. Oh, I am sorry. OK.
    Mr. Perry. Yes.
    Secretary Nielsen. So if you claim a credible fear, you do 
then go into the asylum process. If it is deemed that you have 
a credible fear, you then go through an immigration judge and 
go through the----
    Mr. Perry. Right, right. But in the past there was not the 
parole situation, right? So you claimed a credible fear, we 
detained you to determine, really, do you have a credible fear? 
If you did not then it was essentially fraudulent, and then we 
had the opportunity to send you back to wherever you came from 
because that was erroneous, right?
    But now people know that they can claim a credible fear. We 
will parole you, right? You are released out into our country 
and then we never see you again. We do not know whether you had 
a credible fear.
    It seems like the current parole policy is actually a 
magnet. People know that, and they know they can just come and 
claim it and they will be paroled, and they will never have to 
answer for that parole. That is what I think most of my 
constituents that are interested in ending catch-and-release 
are concerned about.
    Secretary Nielsen. Understood. Part of that is detention 
bed capacity. So if you are not a flight risk, there are a 
limited number of people who are provided essentially 
monitoring ankle bracelets so that we can track them in 
different systems when we detain them and we do not have those 
beds.
    Mr. Perry. Do you need more money for ankle bracelets? Is 
that----
    Secretary Nielsen. Oh, we need more money for detention 
beds. The numbers keep going up and----
    Mr. Perry. Can we use the ankle bracelets if you are going 
to detain--if you are going to parole these people? Is that 
viable? Is it not viable? Do they take them off? Or what is the 
story there?
    Secretary Nielsen. They can evade them, yes, sir. So it 
does help us. It is not a silver bullet. But in terms of 
numbers and if we need more, happy to get back to you on 
specific----
    Mr. Perry. Yes, ma'am.
    Secretary Nielsen. Numbers on that. The last one was St. 
E's, but more broadly integration. You know, Unity of Effort 
should not be a--it is not a destination. It is a constant 
endeavor. We have developed some benchmarks internally. 
Everything from measurements to performance controls, internal 
controls to work on joint task force to eliminate 
inefficiencies. Happy to give you more some stuff on that.
    Mr. Perry. Yes, can we get that information?
    Secretary Nielsen. Happy to.
    Mr. Perry. Thank you, ma'am.
    I yield, sir.
    Chairman McCaul. Chair recognizes the gentleman from New 
Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here. I apologize, 
initially, I was not sure I recognized. But when they brought 
up the Norway--you not knowing Norway was a Caucasian country, 
then I remember. I knew who you were. We have had----
    Secretary Nielsen. You know, that is a funny one. I am very 
proud of my heritage but I am an American. All Scandinavian 
countries are not the same. I was not going to, the way the 
question was asked, testify under oath to something that I 
cannot guarantee was right.
    Mr. Payne. I understand.
    Secretary Nielsen. So I am not really sure why that became 
a story. I do not know why it would be a requirement of the 
Secretary of Homeland Secretary to know the racial makeup of 
every country. I do not use screening based on race, religion, 
or creed. But thank you for raising that again, sir.
    Mr. Payne. As we have had to do in other committees, 
reclaiming my time, I would think that it--I just saying how I 
remember who you were and identify related with that. Let me 
ask you also, since we are on the topic, the wall is something 
that seems very important to many people in this country, would 
you agree?
    Secretary Nielsen. Yes, sir.
    Mr. Payne. Who is going to pay for it?
    Secretary Nielsen. The President continues to ask Congress 
to appropriate, and so we thank you for the funds this year. As 
you know we have $1.6 billion requested in 2019.
    Mr. Payne. But during the campaign, who was going to pay 
for it?
    Secretary Nielsen. I cannot speak to the campaign, sir. But 
right now we have given you are budget request.
    Mr. Payne. No, I will tell you. I did not even watch that 
much. Mexico was going to pay for the wall. How much have we 
gotten from Mexico for the wall?
    Secretary Nielsen. We have, as I said, continued to work 
with you all to request money in the budget to build the wall 
system.
    Mr. Payne. Not Mexico?
    Secretary Nielsen. We have requested the money from 
Congress through the appropriations process.
    Mr. Payne. OK. Well, I heard a lot about Mexico paying for 
it. I just wanted to be clear.
    You know, there are a lot of issues in TSA with low morale. 
I can see why. What are you doing in terms of looking at this 
issue in your organization, you know, when it comes to employee 
satisfaction, with their job, their pay, organization, and 
their willingness to recommend their organization as a good 
place to work?
    Secretary Nielsen. I think morale is a multifaceted issue, 
one that we must take very--it is very critical. We must look 
at it very importantly. I think helping to understand the 
mission and your part in the mission is part one of morale.
    Making sure that you have the training, that you understand 
what is available to you for retirement. Understanding the 
mobility that you might have within an organization. These are 
all things that are important.
    Communications from leadership I find to be very important. 
I do not expect employees to learn about things in the news. I 
hope to always keep them in the loop and help them to 
understand what it is that we do on a day-to-day basis.
    Mr. Payne. There seems to be question of consistency in 
training new TSA officers, TSOs, as opposed to old TSOs not 
getting the same training, and therefore creating gaps in the 
system which they are working in.
    Also issues around, you know, not enough TSOs that they can 
even take bathroom breaks where I have even had a report of a 
TSO having an accident on herself because they were not allowed 
to leave their post. Now that is going, you know, you know, a 
bit too far where, you know, people cannot do bodily functions 
because they are not allowed to leave their post. That is 
something I think that really needs to be looked into and 
addressed.
    We have to make this situation where people want to come to 
work. They are on the front lines. They are doing difficult 
work with people that are not necessarily always patient with 
the processes we have to go through in order make sure that 
they are safe.
    So there is a lot of stress on these officers, and so we 
need to do what we can to identify ways of making this 
circumstance a little more palatable for them throughout the 
course of their shift.
    I see my time is up, and I will yield back.
    Secretary Nielsen. Sir, if you could provide me the name of 
that employee, I am happy to personally look into that. That is 
not an acceptable situation.
    Mr. Payne. Yes, yes. I was shocked by that myself. So I 
will try to get that information to you.
    Secretary Nielsen. Thank you. Thank you.
    Chairman McCaul. The gentleman yields.
    The gentleman from New York, Mr. Katko, is recognized.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you for your testimony today and it is good to have 
you before the committee. I do, however, want to echo the 
sentiments of my colleague earlier today, the Ranking Minority 
Member because it is a problem that preceded you at the agency 
and that is basically ignoring deadlines, both statutory and 
our Congressional deadlines.
    I was a Federal prosecutor for 20 years and I would not 
dare ignore a deadline set by a court, and I see the same 
obligation with respect to your agency.
    We had a similar problem with respect to TSA, and we have 
had some very frank discussions on my subcommittee, Oversight, 
of the TSA. I dare say that they have improved dramatically 
with respect to honoring deadlines.
    The culture that preceded you nevertheless is under you, 
watch now, and I would implore you to follow the deadlines. I 
do not think they are optional and I do not think responses 
such as we will get back to you are acceptable. I think that 
that is a bipartisan feeling and especially when it is a 
statutory deadline. That is law.
    I would ask that you treat that with less cavalierly and 
understand that those are deadlines that should be answered. 
Now----
    Secretary Nielsen. Sir, if I could.
    Mr. Katko. Yes.
    Secretary Nielsen. I apologize if I misspoke earlier. All I 
was trying to suggest is that I cannot give you today a 
specific date, so I would get back to you on giving you a 
specific date. I completely understand what you are saying and 
you have my commitment to work not only with TSA but throughout 
the Department to meet all statutory deadlines.
    Mr. Katko. That is all we are asking. Thank you very much.
    Secretary Nielsen. I understand.
    Mr. Katko. Now, switching gears, with respect to the 
border, and I have spent a lot of time down there as a Federal 
prosecutor in El Paso going after cartel-level members and I 
saw the border for that sieve that it is.
    But I also spend a significant amount of my time as a 
prosecutor on the Northern Border, and I think it routinely 
does not get the attention that it deserves. About 95 to 96 
percent of the Northern Border is unsecure. I was just 
wondering how much time have you spent analyzing issue and 
whether you have had any--whether you have taken a look at the 
Northern Border threat assessment that was recently done?
    Secretary Nielsen. Yes, and as you know, what comes after 
that is the Northern Border Security Strategy which we hope to 
release shortly. We do spend a lot of time talking about the 
Southwest Border. But we do have issues on the Northern Border.
    I was just in Canada Monday/Tuesday talking to my 
counterparts there about ways in which we can coordinate better 
on some of the unique aspects on that Northern Border. But, 
yes, we need to keep that in mind always.
    Mr. Katko. Thank you very much. Switching gears again, 
during my oversight at TSA, we have had much discussion with 
the Chairman here as well as others about having the updated 
technology.
    We all know the bad guys are getting more advanced with 
their technologies especially with respect to aviation and it 
is quite concerning. We also believe, and I think you will 
agree, that the CT scanners are a new generation of helping to 
ameliorate that threat.
    Not only does it help ameliorate the threat, it really 
would expedite throughput at airports which is always a 
concern, especially coming with the high travel season coming.
    There are about 2,500 X-ray machines Nation-wide, and if 
you replace all those with CTs, what we are doing this year is 
really kind of a drop in the bucket. We have asked TSA, and I 
do not know if they are spoke with you yet, about examining 
whether we should reprogram some of that money from other areas 
of Homeland Security to plow that into getting more of these CT 
scanners up and running.
    I say that because we saw them first-hand, myself and my 
colleagues on both sides of the aisle here on a delegation to 
Europe. They are already on the front lines there. They are 
already being used there.
    I understand the need to test these things, but there must 
be an expedited way to test them when they are already being 
used overseas. By the way, they are American companies and they 
are ready to provide these to you. No. 1, the delay. But No. 2, 
more importantly, the reprogramming of that money, if you can 
look into where you can--about reprogramming from other areas 
of Homeland Security I think it would be a really prudent thing 
to do.
    Secretary Nielsen. Just to answer quickly. So as you know 
we did that in 2017. The current plan is if TSA is working as 
quickly as they can with industry to deploy them, and if in 
fact they are able to deploy the ones that we have 
appropriated, we will look to reprogram as we have done before.
    Mr. Katko. Thank you very much. Last, with respect to TSA, 
there seems to be an on-going practice here, and we have tried 
hard both in this committee and in my subcommittee to try and 
stop TSA from having people go through PreCheck lines when they 
are not PreCheck registered. The PreCheck is a known and 
trusted traveler-type program, and it is there for a reason 
because you minimize a risk because of our involvement in a 
PreCheck.
    The practice started as managed inclusion, then they had 
body detection officers and they were throwing people into that 
lane that they should not have been. Now that we told them they 
cannot do managed inclusion, they cannot do some of the things 
they are doing, they are just basically calling it by a 
different name.
    We have made it clear to TSA that we are going to introduce 
some legislation to make it mandatory that you not do that. But 
I just wondered have you had any discussions with the 
administrator at TSA about this PreCheck problem?
    Secretary Nielsen. Not this specific problem, no, sir. But 
PreCheck as you say should be reserved to those who qualify for 
PreChecks. I will work with the administrator on that.
    Mr. Katko. I am very glad to hear that and I thank you very 
much for your time.
    I yield back Mr. Chairman.
    Chairman McCaul. Gentleman yields back.
    Gentlelady from New Jersey, Ms. Watson Coleman, is 
recognized.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Madam Secretary, is this budget your budget?
    Secretary Nielsen. This----
    Mrs. Watson Coleman. Did you have anything--did you have 
any input in this budget?
    Secretary Nielsen. We did, yes, ma'am. So the men and women 
of DHS put together their request.
    Mrs. Watson Coleman. OK.
    Secretary Nielsen. It goes all the way up if you will.
    Mrs. Watson Coleman. So this happened under your watch too?
    Secretary Nielsen. This----
    Mrs. Watson Coleman. All right.
    Secretary Nielsen. The 2019 budget, well----
    Mrs. Watson Coleman. So, you know----
    Secretary Nielsen. As you know, I joined in December so we 
were already well into the budget----
    Mrs. Watson Coleman. I think our greatest value statement 
is where we are putting our resources, and I am not just 100 
percent sure that there is a consistency between where your 
people or your budget applies its resources and its ability to 
keep this homeland safe.
    With regard to land transportation issues, there is a 
reduction in the security grants. There is a reduction in the 
VIPR teams, there is a reduction or elimination of the Law 
Enforcement Officers grants. There is a reduction in the exit 
lane staffing. TSO staffing still is somewhere around 2,500 
people short.
    I do not know how that helps us to be more secure in those 
areas where we are supposed to be. I do not understand where we 
are addressing the fact that our subways and our land 
transportation areas are soft targets and are being targeted.
    So I am going to ask that you respond to how this budget, 
in writing to me because I have got a lot of questions, how 
these particular issues that I raised are a reflection of more 
security for our homeland.
    I want to know the difference or I want to know if there is 
a difference between refugees and illegal immigrants as far as 
you are concerned. I want to know is there a written statement 
as to what our U.S. policy is on people who are fleeing very 
dangerous countries, or very oppressive countries, or famine, 
or whatever versus other types of people who are coming over 
because I get the sense that we are locking them together.
    I am particularly interested in this caravan that is 
reaching our borders. I got the impression that we think of 
them as illegal immigrants who are going to come to our border 
and then we are going to detain them, these are women and 
children.
    Yet, we know who is in that caravan. If we really wanted to 
know if there is any danger in that caravan, you would have the 
capacity right now to be vetting some of those people. So I 
want to understand what your policy is going to be when it 
comes to that caravan actually coming to our borders willingly 
acknowledging that they are here and why they are here and what 
they are looking for. So I would like you to answer that in 
writing.
    I want to understand this policy that we have where since, 
I guess it is December or October 2017, we have taken more than 
700 children away from their families, 100 of those children 
were under the age of 4, and they have been taken from their 
parents in immigration detention. I want to know how that makes 
our country safer and more secure.
    I want to know what our policy is with regards to dealing 
with the trauma that that must inflict upon both these 
children, these babies and these children, and as well as their 
families.
    I have a question with regard to the Secret Service, I sent 
a letter asking you all to explain to us the cost associated 
with protecting the Trump kids going around the world doing 
Trump business. I need to have an answer to that question.
    I want to associate myself with Mr. Katko because I was up 
there on the Northern Border and a lot of concerns were 
expressed with regard to trafficking as well as drugs, opioids 
in particular. It just seems to me that we think that we have 
this responsibility to the Southern Border and not to any of 
the other areas.
    I guess the last thing I need to understand from you in 
writing is explain how we are justifying putting additional 
resources down on the Southern Border, particularly in the form 
of our National Guard when all of the data that we have been 
receiving, even data coming from your office is that there has 
been quite a significant diminishment of people coming across 
the border.
    So what is the justification for putting more people and 
ramping up the Southern Border as opposed to shoring up some of 
our other targets, our soft targets? I mean is there really a 
rationale? Or is this just campaign promises being fulfilled 
that has absolutely no anchoring in logic or consideration of 
where our tax dollars are going?
    I see that I am over my time, so, Madam Secretary, I would 
just appreciate it if I could get the answers to all of my 
questions in writing.
    Then, Mr. Chairman, I just would like to acknowledge that I 
do have two foster daughters here today, Amina and Lauren who 
are observing democracy in action. Thank you very much.
    Chairman McCaul. Oh, and welcome to the----
    Mrs. Watson Coleman. Thank you, Madam Secretary.
    Secretary Nielsen. Thank you.
    Chairman McCaul. Welcome to the committee to your step-
daughters. Very nice.
    The Chair recognizes the gentlelady from Arizona, Ms. 
McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Secretary Nielsen, good to see you again.
    Secretary Nielsen. Good to see you.
    Ms. McSally. Earlier this week, Yuma Sector Border Patrol 
apprehended 61 people who entered the United States illegally. 
During an initial interview, one of these individuals claimed 
to be an unaccompanied minor. He later admitted he was an adult 
and a part of the MS-13 gang.
    UACs from El Salvador and other Central American countries 
are given different treatment than those from Mexico or other 
contiguous countries, or Canada, and are allowed to remain in 
the Unites States only to disappear into the shadows.
    We also have some other data points, as you know, that in a 
joint DHS/DOJ MS-13 operation last year, of the 267 gang 
members arrested, approximately 25 percent entered the United 
States as unaccompanied minors. In June 2017, a spot check of 
one of the HHS facilities that had 138 teens being held, 39 of 
them, roughly 30 percent, had ties to MS-13 and other gangs.
    Is it, in your view, MS-13 is actually using the loopholes 
in our law in order to send individuals to the United States? 
There is about 10,000 members of MS-13 estimated in the United 
States, and their motto is to kill, rape, and control. I just 
want to hear your perspective on what is going on with MS-13 
and how they are using these loopholes in order to further 
endanger communities around our country.
    Secretary Nielsen. We see them starting in their countries 
of origin. They recruit young children. They train them. They 
train them how to be smuggled across our border, how to then 
join up with gang members in the United States.
    We similarly see gang presence within the United States 
reaching back down into countries within Central America and 
recruiting and also providing instruction. We see smugglers 
increasingly smuggle specific to MS-13. We see all of the 
resulting effects of that from violence in general across the 
border, but also the drugs and other illicit things that go 
with that smuggling.
    Ms. McSally. Thank you. So I mean, these loopholes we are 
talking about are very real, right, because you are saying the 
MS-13 gang members that are here are recruiting minors and they 
know that they will be able to be let into the United States.
    Secretary Nielsen. Yes.
    Ms. McSally. Others, probably that are adults, they either, 
like in this case, try and pretend they are minors or they tell 
them to say the right words, right? I have a credible fear.
    Secretary Nielsen. That is right.
    Ms. McSally. But then what is happening is they are then 
being released with a future court date that they never show up 
for, right?
    Secretary Nielsen. That is right, we estimate we only have 
3.5 percent of UACs that are eventually removed because they do 
not show up.
    Ms. McSally. So, you know, closing these loopholes is 
paramount for security, for our National security, for our 
public safety. The bill that Chairman McCaul and I have that we 
have been working diligently with you on, that I know you 
support, closes these loopholes.
    I just really want to urge our colleagues that we have to 
bring some form of our bill to the floor. This is just one of 
the many issues----
    Secretary Nielsen. Yes.
    Ms. McSally. That we are addressing in that bill to close 
these loopholes. This is not partisan. This is a public safety, 
local community, and important security issue that we are 
trying to address and specifically highlighting this gang 
issue.
    So we also saw in California, according to DHS, 100 gang 
members, many of which belong to MS-13, were recently released 
from October 2016 to June 27 because of their sanctuary 
policies in California.
    So you have these gang members and other violent felons, 
violent criminals, that because of the dangerous policies of 
California, these individuals are being released back into our 
communities to be a further danger to our communities instead 
of being handed over to Federal authorities in prison where it 
is safer for the community and safer for your agents. Can you 
just speak to specifically the dangers of that and what needs 
to be done?
    Secretary Nielsen. Yes. So sanctuary cities began as a 
sanctuary for victims, as you know. What they have become over 
time, unfortunately, is a very contorted version of that which 
is a sanctuary for criminals, and we need to be very clear 
about that.
    Sanctuary city protects criminals. It is not protecting the 
community. So as I mentioned earlier, what it requires us to do 
is send our agents not moving from a controlled environment 
back into the communities, putting that community at risk and 
other immigrants in that community that are not serious felons 
and putting my officers and agents at risk.
    It does not make any sense. It is a way in which we are 
pitting blue against blue, Federal law enforcement against 
State law enforcement where we should all be working together 
to protect our communities.
    Ms. McSally. Great. Thank you for clarifying that, again, 
because sometimes this gets misunderstood by people as to what 
the real impact is. Again, cracking down on these sanctuary 
cities is also in Chairman McCaul's and I bill--in our bill and 
we look forward to working to move that forward.
    I fully support the National Guard being deployed to 
support border security at the Southern Border. I represent a 
Southern Border district. Can you just touch on how it is going 
so far? We would love to have you back to Arizona, would love 
to host you there in order to be able to talk to the ranchers, 
local residents, and see how things are going down at the 
border.
    Secretary Nielsen. Well, thank you for the invite. I try to 
get to the border whenever I can. It is very important to learn 
from the people there who are on the front lines of what works 
and does not work.
    The National Guard, we have about 1,000 deployed. We have 
around 600 actually active at the, you know, within the border 
communities. What they are doing is they are supporting CBP so 
that we have more badges on the border so CBP can go and do 
their law enforcement mission. So they are helping us with 
surveillance, intelligence, fleet maintenance, road clearing, 
all of the enabling functions that helps CBP to do what CBP 
needs to do.
    Ms. McSally. Great. Thank you. I am over my time. I yield 
back.
    Secretary Nielsen. Thank you.
    Chairman McCaul. Gentlelady's time has expired.
    I did meet with the Orange County Sherriff. It was of 
interest to me with sanctuary cities. While they are barred by 
their State law, they do put the ICE detainees on a website 
that is then used publicly so ICE can make the safe transfer of 
the prisoner to ICE custody without releasing that criminal 
alien into the streets. I think that is very innovative.
    With that, the Chair recognizes gentlelady from New York, 
Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Welcome, Madam Secretary.
    Secretary Nielsen. Good morning.
    Miss Rice. I have three questions I will lay out for you 
and hopefully I am going to do it quickly so you can answer. So 
my first question is what is your personal opinion in your 
capacity as Secretary of Homeland Security on whether Russia 
interfered in our elections in 2016, and the likelihood that 
they will continue their attack on our democracy in 2018 and 
beyond? That is No. 1.
    No. 2 is earlier this month, USCIS released internal 
documents pertaining to the decisions and temporary protected 
status for Haiti. The agency's report stated that many of the 
conditions in Haiti that prompted the 2010 original TPS 
designation remained and that country was still vulnerable.
    So despite this report, Director Lee Cissna wrote to then-
Acting Secretary, Elaine Duke, that Haiti had made enough 
progress and no longer met the conditions of the TPS 
designations. So my two questions are why did Director Cissna, 
if you know, make that recommendation which was clearly in 
conflict with his own agency's internal findings, No. 1?
    No. 2, are there any similar internal reports from USCIS on 
the TPS designation for El Salvador? If so, if you could 
provide those documents to this committee?
    My last question, when you testified before the House 
Appropriations Homeland Security Subcommittee earlier this 
month, you committed to ensuring that, and this is a quote from 
you, ``Any pregnant woman in our care in detention receives 
adequate care based on the recent change to ICE's policy on 
detaining pregnant women.''
    So three questions, which detention facilities currently 
offer prenatal care? Can you define for me what DHS's 
definition of, ``adequate care'' is, and how you as the 
Secretary intend to ensure each pregnant woman receives it? How 
will you hold detention centers and individuals accountable? 
Finally, what steps, specifically, are you taking to ensure 
that ICE is meeting the assurances that you made?
    Secretary Nielsen. Thank you. So on Russia, yes, I do not 
think there is any question. Russia did interfere in our 
election system through a variety of means. As you know, they 
released everything from e-mails to foreign influence 
techniques, used our social media to try to manipulate public 
opinion. They did, in fact, attempt to undermine our elections 
by attacking our election infrastructure.
    I have no doubt they will continue to try to do this. It is 
a priority of mine. The portion that we play is to protect--
help the State and locals, they have the primary responsibility 
in protecting the critical infrastructure related to elections, 
so we will continue to do that.
    On TPS Haiti, TPS decisions require us under law to look 
at, and maybe this is what you are referencing, the originating 
conditions that necessitated the designation of TPS. If those 
specific conditions no longer exist, the statute requires us to 
terminate TPS because it was meant to be a temporary program.
    So I am not particularly familiar with the backup work that 
you referenced. But I can just say broadly, unfortunately, what 
that means is some countries remain, perhaps unstable and have 
difficult conditions, but if they are not a result of the 
originating designation, that designation must be terminated. 
But----
    Miss Rice. I would ask if you could just look into that a 
little because it----
    Secretary Nielsen. Yes.
    Miss Rice. Seemed very clear that the report State--or they 
say many of the conditions. I do not know if one does not exist 
that means that it is over, but that seems pretty arbitrary. So 
if you could just, you know, look for me.
    Secretary Nielsen. I will. I will. I will look into it. 
With respect to your question for documents regarding to El 
Salvador, of course, we will be happy to provide any relevant 
ones.
    Neonatal care, so I do take this very seriously. As I 
mentioned in my last hearing, we do screen for pregnancy for 
women ages 18 to 56. We put them in a center, if they must be 
detained, that does provide the neonatal care. I will get you 
the names of the specific detention.
    We provide counseling and we provide access to outside 
experts. If they seek additional medical guidance or 
prescriptions or other things they need that we cannot provide, 
we give them that option.
    In terms of how I am making sure they do that, I have had 
many conversations with the director. We have audits in place. 
We are taking this very seriously. I just would ask, as I did 
then, if you have any concerns or specific examples of when 
that is not occurring to please let me know and we will take 
that very seriously.
    Miss Rice. I will do that. Thank you. I appreciate you 
following up as we discussed. Thank you very much for the 
service.
    I would just like to note that I think I am the only person 
that stayed under 5 minutes, Mr. Chairman.
    Chairman McCaul. I appreciate it.
    Miss Rice. Thank you for that, Secretary.
    Chairman McCaul. Congratulations. Thank you so much for 
that.
    The Chair recognizes the gentleman from New York, Mr. 
Donovan.
    Mr. Donovan. I thank you, Miss Rice.
    Thank you, Mr. Chairman. Before I begin, I would ask 
unanimous consent to insert into the record a letter from the 
Jewish Federations of North America discussing the importance 
of the Not-for-Profit Security Grant program, a program that 
has made a big difference to the not-for-profits in my 
district.
    Chairman McCaul. Without objections, so ordered.
    [The information follows:]
            Letter Submitted by Honorable Daniel M. Donovan
                                    April 25, 2018.
The Honorable Daniel M. Donovan, Jr.,
Chairman, Subcommittee on Emergency Preparedness, Response, and 
        Communications, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable Donald M. Payne, Jr.,
Committee on Homeland Security, Subcommittee on Emergency Preparedness, 
        Response, and Communications, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Donovan and Ranking Member Payne: We thank you and 
the members of the Subcommittee, for holding this week's hearing on the 
current terrorism threat to our Nation's high-risk metropolitan areas 
and the importance of FEMA's Preparedness Grant Programs to these 
cities and communities. We would like to take this opportunity to draw 
attention to the particular threat concerns of the Nonprofit Sector and 
the importance of the Nonprofit Security Grant Program to our security.
    According to the joint statement of Joseph J. Esposito, the 
Commissioner of the New York City Department of Emergency Management, 
John Miller, the Deputy Commissioner of Intelligence and 
Counterterrorism for the New York Police Department, and Joseph W. 
Pfeifer, the Chief of Counterterrorism and Emergency Preparedness for 
the Fire Department of New York City, ``More than any other place in 
the world, New York City remains in the crosshairs of violent 
terrorists.'' In describing the terrorist plots targeting NYC since 
September 11, 2001, they noted that major synagogues were targeted. 
They further testified that while deterrence has kept New York City 
safe, ``the specter of an attack is forever present'' and the work 
``cannot happen without the assistance and aid of the Federal 
Government.''
    Similarly, Jared M. Maples, Director of the New Jersey Office of 
Homeland Security and Preparedness, testified that mass gathering 
locations are often the primary targets of terrorists looking to cause 
as much harm as possible, and that a whole community approach is 
necessary ``to demonstrably reduce the risk of successful attacks on 
soft targets.'' This is not a new threat concern. To his point, in 
February 2002, the Associated Press published a translated al-Qaeda 
training manual that was spirited out of Afghanistan. The manual 
prescribed that special terror units should work in areas with large 
Jewish communities: ``In every country, we should hit their 
organizations, institutions, clubs and hospitals.'' It read further, 
``The targets must be identified, carefully chosen and include their 
largest gatherings so that any strike should cause thousands of 
deaths.''
    Today, the threat picture is no less disconcerting. According to a 
recent audit conducted by the Anti-Defamation League, there were at 
least 1,986 anti-Semitic incidents perpetrated throughout the United 
States in 2017 (many additional incidents are presumed unreported). 
This amounted to an increase of 57 percent over the number of incidents 
reported in 2016, constituted the largest single-year increase on 
record, and was the second-highest number reported since the Anti-
Defamation League began tracking such data in 1979. Moreover, for the 
first time in nearly a decade an incident occurred in every U.S. State, 
targeting Jewish schools, community centers, synagogues, cemeteries, 
museums, public spaces, and private businesses and property. According 
to the audit, the highest number of incidents took place in New York 
(380 incidents), and the third-highest number of incidents took place 
in New Jersey (208).
    While the majority of religious-bias threats to the Nonprofit 
Sector continue to target the Jewish community, mosques, churches and 
other faith and communal organizations are high-value ``soft'' targets, 
as well. Along with the Jewish community, these other vulnerable 
communities have too frequently been the victims of arson and fire 
bombing, shooting and mass shooting, attempted bombing, assault, death 
threats, vandalism, property damage, and other incidents that have 
occurred just during the 115th Congress.
    With this overview as a backdrop, we are grateful to FEMA Grant 
Programs Directorate Assistant Administrator Thomas DiNanno for his 
testimony, which called attention to the significance of the Nonprofit 
Security Grant Program to its stakeholders, and illustrated the 
program's value toward improving the Nation's readiness in preventing, 
protecting against, and responding to terrorist attacks targeting the 
Nonprofit Sector.
    In step with the testimony of Assistant Administrator DiNanno and 
the panel of New York and New Jersey counterterrorism experts, the 
threat picture for faith-based and other communal nonprofit 
institutions is considerable and justifies Congress's continued strong 
support for the Nonprofit Security Grant Program as a critical 
component of FEMA's Preparedness Grant Programs.
    Thank you for your consideration of our views and for your 
continued support for the Nonprofit Security Grant Program.
            Sincerely,
                                         Robert B. Goldberg
                              Senior Director, Legislative Affairs.

    Mr. Donovan. Thank you.
    Madam Secretary, I hate to do this to you, but everybody 
has been asking you for questions answered in writing, and I 
have to actually go into the Speaker's chair in about 4 minutes 
to open up the legislative business. So I would just like to 
lay out my questions and ask you to do so as well.
    Earlier this week, my subcommittee held a field hearing in 
my district which focused on the importance of Federal 
counterterrorism support to high-risk urban areas like New York 
City.
    Witnesses representing law enforcement and first responders 
in New York and New Jersey discussed the importance of 
intelligence information sharing and the homeland security 
grant programs to their operations. We must fully fund these 
grant programs particularly in light of the evolving terrorist 
threat.
    Another topic of discussion at the hearing was the 
difficulty in securing mass transit systems. The Transit 
Security Grant program is vital to those efforts, but the 
overall focus on surface transportation security programs 
dwarfs that of aviation security.
    Our witnesses expressed great concern about mass transit 
security, and that is a concern I share especially in light of 
the attempted bombing at the New York City Port Authority 
Terminal in December. Can you please speak or write to us to 
what more we can do to enhance the security of this 
transportation mode? How is DHS supporting information sharing 
when it comes to threats to mass transit?
    My other question would be involving the Countering Weapons 
of Mass Destruction Office. The President's budget request for 
that office proposes changes to the Securing the Cities 
program, a program that has proven very successful in New York 
City.
    We are hearing concerns from securing city jurisdictions 
about proposed changes in permissible equipment, to whom the 
equipment would be provided to, and the impact that would have 
on the jurisdiction's ability to conduct radiological detection 
in response operations. This committee has long supported the 
Securing the City's program as it is currently operating, and 
the House passed my legislation authorizing the program just 
last year.
    My three questions involving that would be what changes is 
the Department proposing to the program? What outreach have you 
done to participating jurisdictions to solicit their feedback? 
How are you addressing the concerns that the Department is 
receiving from securing the city's jurisdictions?
    I thank you for your service to our Nation. I thank you for 
answering my question. I thank you for indulging me. I have to 
run.
    Secretary Nielsen. OK.
    Mr. Donovan. I yield back and, Mr. Chairman, I used less 
time than Rice did.
    Chairman McCaul. Yes. You yield back to, for the record, 2 
minutes 15 seconds. That is a record I think. So thank you for 
that.
    The Chair recognizes the gentleman from California, Mr. 
Correa, who I notice brought in three or four children to the 
hearing?
    Mr. Correa. Yes.
    Chairman McCaul. I want to welcome them as well.
    Mr. Correa. Thank you. They are all our children. Those are 
survivors of our veterans that made the ultimate sacrifice----
    Chairman McCaul. Wow.
    Mr. Correa. Fighting for our freedom around the world. So I 
thought it was important for them to follow us here and shadow 
us. So thank you very much, Mr. Chairman, for pointing them 
out.
    Chairman McCaul. Yes, and thank you for bringing them.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member for 
holding this hearing.
    Commissioner Nielsen, again, thank you for being here. I 
wanted to follow up on some of the comments made by my 
colleague, Mr. Katko, from New York. I represent California, 
Orange County, California.
    Our Nation's security is very important to my constituents 
or the constituents to our State. These are issues that are 
also very important to our taxpayers. Right now, as I travel 
through our district, which is Democrat and very Republican as 
well, I do not hear much talk about undocumented workers. As a 
matter of fact, in Central Valley, I hear the need for more 
farm workers.
    Newport Beach area, I do not hear people talking about the 
nannies that are undocumented. I do not see that as a 
complaint. Then in Disneyland, our area is heavy in tourism, I 
do not hear a lot of people complaining about the undocumented 
workers, waiters, waitresses, and cooks.
    But I will tell you what I do hear complaints about in my 
district, and I think throughout the country, is this opioid 
crisis. Some numbers have it as high as 500 percent increase in 
usage throughout the Nation. Deaths have skyrocketed because of 
the opioids.
    So my question really is according to one of your DHS 
reports, the Northern Border threat, you have more and more 
fentanyl, ecstasy coming through Canada. What are we planning 
to do in the, you know, Northern Border?
    As Mr. Katko said, 95, 96 percent of that border is 
essentially open. So any thoughts about where we are going in 
terms of protecting our Northern Border?
    Secretary Nielsen. Yes. So as I mentioned, I just was 
speaking with my colleague in Canada about this, so part of it 
is the partnership on both sides to make sure that we 
facilitate legal trade and travel, but that we reduce any 
illicit activity including drugs. As you say, opioids continue 
to be a problem throughout the Nation.
    Mr. Correa. If I may?
    Secretary Nielsen. Please.
    Mr. Correa. What kind of partnerships do we have right now 
with people north and south of the border?
    Secretary Nielsen. They are strong. They are very strong 
with the Canadians, yes, sir.
    Mr. Correa. How about with the Mexicans?
    Secretary Nielsen. The Mexicans, we have a strong 
partnership as well.
    Mr. Correa. OK. General Kelly, who was in your position 
here a few months back, made some comments, and I agreed on to 
the affect that if anything gets near our border we have 
essentially lost a battle.
    If we are going to stop terrorists, we have to work with 
not only the Mexicans, not only the Canadians, but the 
Brazilians and some Afghanis and some of the others. Are you 
moving ahead and building those relationships through 
formalized information-sharing agreements?
    Secretary Nielsen. We are, absolutely. Yes.
    Mr. Correa. So following up on that, we are looking at 
building a border wall in the Mexican border. I presume we are 
going to do something like that at the Northern Border as well?
    Secretary Nielsen. Well, we are working with the Canadians, 
so we still need the----
    Mr. Correa. Are we going to build a Northern Border as 
well?
    Secretary Nielsen. In some places we need impedance and 
denial, yes, sir.
    Mr. Correa. So we are going to build a physical barrier as 
well like the one we have seen on TV at the Southern Border?
    Secretary Nielsen. We do not have a current plan right now 
to build an equivalent structure that we have on the Southern 
Border.
    Mr. Correa. Let me ask you, and again, coming back to the 
opioid issue, before this committee, this Homeland Security was 
created, 30 years ago we had a lot of our drugs coming into 
this country through Miami, through Florida. This country did a 
great job of stopping those trades of illicit drugs through the 
Caribbean.
    What we did is we shifted it inland through Mexico. As a 
result, we destabilized the whole country with our money that 
went to buy drugs, weapons, so on and so forth. So as we cut 
off the Mexico side, are they going to start flowing in through 
Canada and are they start going in through our sea ports?
    I say that to you because here, a few months back, our 
Coast Guard commandant told us that a couple years ago they 
identified about 600 known drug vessels bringing drugs into 
this country, and the Coast Guard did not have the resources to 
stop, to intercede, to stop those shipments.
    So again, as a taxpayer, I am running out of time, my 
question is, is the money best spent on a border wall, or is 
it, you know, cooperating with the nations? Or if you had a 
dollar, where would you spend it?
    Secretary Nielsen. If I had a dollar? I think it needs to 
be all of the above. I mean, the short answer would be----
    Mr. Correa. But if you had a priority, ma'am?
    Secretary Nielsen. If we have a priority, we have to secure 
our Southern Border, sir. That is where we see the greatest 
threat between the two borders.
    Mr. Correa. The threat in terms of?
    Secretary Nielsen. Drug smuggling, terrorist, traffickers, 
illicit activity, and violence.
    Mr. Correa. Mr. Chair, I am out of time but I would like to 
have written information on that----
    Secretary Nielsen. Sure.
    Mr. Correa. Compared to what is coming through Canada and 
through the ports. Mr. Chair, I yield time.
    Chairman McCaul. Gentleman yields back.
    The gentleman from Louisiana, Mr. Higgins, is recognized.
    Mr. Higgins. Thank you, Mr. Chairman.
    Madam Secretary, I appreciate you appearing before myself 
and my colleagues today. Thank you for your service to our 
country. I am concerned about authorization of the Department 
of Homeland Security.
    As you know, this committee crafted in the House of 
Representatives in July 2017 with overwhelming bipartisan 
support, 386 to 41 by vote, passed the full authorization of 
the Department of Homeland Security, yet we have seen no action 
in the Senate and this greatly concerns me and my colleagues on 
both sides of aisle in the House. How has this lack of action 
in the Senate injured your ability to serve and protect our 
Nation, Madam?
    Secretary Nielsen. Well, first of all, I want to continue 
to thank this committee for your support. It is very important 
to have this reauthorization. So as you know, it would give us 
some additional authorities that we need. It would clarify 
parts of the law. It would clarify our mission sets, and it 
would give us the ability to more effectively manage to the 
mission by reorganizing within the department.
    Mr. Higgins. Centralized command and control, by your 
definition and by those of us that sit on this committee, we 
would concur that centralized command and control is crucial to 
the efficiency of any operation. Would you not agree?
    Secretary Nielsen. I would agree because we do this based 
on risk. So it has to be a centralized look at risks that we 
can match the mission set and resources accordingly.
    Mr. Higgins. So the effect of reauthorization, would you 
see that as allowing your Department to operate, and all the 
components that agencies within your Department to operate more 
efficiently and be better able to serve the Nation and to 
protect the interest of National security?
    Secretary Nielsen. Yes, sir. Not having reauthorization 
binds my hands and those of the men and women of DHS.
    Mr. Higgins. Thank you, Madam. I hope my colleagues in the 
Senate are listening.
    It has been stated by some Members here of this committee 
today several times regarding the caravan that you know who 
those people are. I find that difficult to believe, Madam. Is 
that true? How is that possible? Have they been vetted? Have 
they been interviewed by your agents?
    Secretary Nielsen. No, sir.
    Mr. Higgins. Well, how would you possibly know who they are 
then?
    Secretary Nielsen. I do not know.
    Mr. Higgins. Thank you very much for clarifying that. 
Regarding my colleagues' request for confirmation of your 90 
percent number for those that have been issued a citation, it 
is a summons for court, is that not?
    Secretary Nielsen. Yes.
    Mr. Higgins. Yes. A summons for court calls for probable 
cause stating that there has been some criminal act. That 
criminal act would have been illegally entering out Nation. Is 
that correct?
    Secretary Nielsen. Yes, illegal entry without inspection.
    Mr. Higgins. So these illegal immigrants receive a summons 
for court, and then you are stating that 90 percent do not show 
up for court. I would like to see the demographics of those 
numbers as well because I would be surprised if 10 percent show 
up for court.
    During the course of my career as a police officer for over 
a decade, I have had many interactions with illegal immigrants 
either in field interviews or by stopping a car with no 
registration, expired inspections, tag, et cetera. There is 
nothing that can be done.
    You stop these guys. They have no driver's license. Their 
driver's license is fake. There might be three or four of them 
in the car. It is pointless to give them a citation for a 
misdemeanor traffic violation because they are certainly not 
returning for traffic court.
    You cannot tow their car because then they are on foot in 
your jurisdiction. You get phone calls all night. You cannot 
bring them to jail because ICE will not come pick them up. So 
that is what happens to us both, nothing. Whereas an American 
citizen in the same situation would be cited, issued a summons, 
or perhaps brought to jail.
    So I would be surprised if 10 percent of those that are 
issued a summons to American court and Federal court for 
entering our Nation illegally show up. So I would be interested 
as well to receive the demographics.
    Can you respond at all? Do you have those demographics? Who 
they are, their age, their gender, their nation of origin, 
whether or not they have an anchor family, et cetera? Can you 
provide that information?
    Secretary Nielsen. We do have much of that, yes, sir. We 
are happy to provide it.
    Mr. Higgins. I would appreciate that. I would certainly be 
interested in looking at it. Thank you, Madam, for your poise 
and your grace during your testimony. Your continued service to 
our country is greatly appreciated.
    Mr. Chairman, I yield back.
    Chairman McCaul. The gentleman yields.
    The gentlelady from Florida, Mrs. Demings, is recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Thank you to our Ranking Member.
    Before I get into my line of questions, Madam Secretary, 
and welcome, it is good to meet you. I just want to follow up 
on a question that my colleague just asked. Your answer was you 
have no way to identify who is possibly in a caravan. I just 
wonder why you did not give that answer to the person who asked 
you that question?
    Secretary Nielsen. Because he did not ask. It was just part 
of his speech and I just did not want to interrupt him.
    Mrs. Demings. You did not feel the need to clear that? 
Because that is a major, I think, part. You have cleared up 
some other things this morning. You did not feel the need to 
kind-of clear that up just kind-of for the record? No?
    Secretary Nielsen. But I was happy to do it just now.
    Mrs. Demings. OK. All right. You know, budgets are 
certainly, I believe, a list of priorities. Many say that they 
kind-of express our values. Of the things we have talked about 
this morning, we have certainly talked about building a wall 
and even detention beds and immigration enforcement.
    When you gave your list of your missions at the Department 
of DHS, it was listed first on your list. So I would just like 
to know, do you consider building a wall or immigration 
enforcement a higher priority than say restoring or increasing 
grant funding to local communities, local first responders who 
deal with violent acts and other threats every day?
    Secretary Nielsen. So I think they are both important 
issues. I mean, I would hope that----
    Mrs. Demings. Do you consider one a higher priority? 
Because that is the business that you are in.
    Secretary Nielsen. Right, so----
    Mrs. Demings. It is a tough job.
    Secretary Nielsen. OK. OK.
    Mrs. Demings. Let me finish.
    Secretary Nielsen. All right. So, yes----
    Mrs. Demings. Let me finish. It is a tough job. I just want 
to know, do you consider, based on your knowledge, training, 
and experience, keeping our country safe and secure is a tough 
but a big job? I certainly believe you are capable of doing 
that.
    I want to hear from you based on your knowledge, training, 
and experience, do you believe that building a wall or 
immigration enforcement is a higher priority, because you have 
to decide how those dollars are spent, than increasing or 
restoring funding to first responders to deal with, oh my gosh, 
just a myriad of threats every day?
    Secretary Nielsen. I think that if we can keep the threat 
out of our country through strong border security, that is the 
first and best way to help those State and locals prepared. So 
we see 15 terrorists who are known or suspected who attempt to 
travel or travel here every day. Border security is homeland 
security. If I can do my job in keeping them out of this 
country and thereby helping State and locals in----
    Mrs. Demings. Can you tell me how many people have been 
killed as an act of violence at the Southwest Border during 
your tenure as Secretary?
    Secretary Nielsen. I cannot, but I am happy to get back to 
you with that figure.
    Mrs. Demings. Can you tell me how many, if any, Custom and 
Border Patrol officers or agents have been killed at the 
Southwest Border, or even, let me say this, severely injured at 
the Southwest Border during your tenure?
    Secretary Nielsen. Sure. Two, and then the assaults are up 
73 percent.
    Mrs. Demings. OK. So 2 CBP officers have been killed in the 
line of the duty----
    Secretary Nielsen. Last year, yes.
    Mrs. Demings. Last year. But you cannot tell me overall how 
many persons overall have died at the Southwest Border through 
acts of violence, of course, have been killed during your 
tenure?
    Secretary Nielsen. I cannot give you a specific number 
right now, no, ma'am.
    Mrs. Demings. OK. You know, coming from Florida where we 
just had a school shooting, 14 people died. In Orlando a year-
and-a-half ago, we had 49 people who were killed in what we 
labeled domestic terrorism.
    Then folks who were just trying to go and enjoy a concert 
in Las Vegas died, lost their lives, 58. But you have no idea 
how many people overall died during your tenure at the 
Southwest Border.
    But you would consider that a greater priority than the 58, 
the 49, or the 14, those that are classified as domestic acts 
of terrorism? With your dollars, you believe that putting them 
at the Southwest Border is a greater priority? How do you 
justify that? Obviously, you do, but please tell me how you 
justify that?
    Secretary Nielsen. Sure. I apologize. I am not sure I am 
following all of the--but what I was saying is border security 
is a priority. The reason for that is because if we can keep 
the threat from coming in our borders, whether that is drugs, 
whether that is terrorists, whether that is TCOs or gangs, then 
we eliminate part of the threat environment that the State and 
locals have to deal with. So that is why I was saying border 
security----
    Mrs. Demings. Can you tell me very quickly, because I am 
from Florida, I think FEMA has, gosh, been criticized quite a 
bit, as you know, about their response to Puerto Rico and 
housing has been an issue. You know there are multiple people 
in hotel rooms. You know, a hotel room, 8 people, 2 beds.
    But the program that would assist them has not been 
utilized to assist--the Disaster Housing Assistance Program. 
Could you tell me if you have any plans to implement that 
program to help the victims from Puerto Rico?
    Secretary Nielsen. Sure. So as you know, under the National 
Disaster Recovery Framework, it is actually HUD that has that 
recovery function for housing. So we are working very closely 
with Secretary Carson. Actually, Governor Scott from Florida 
has been very helpful in providing lessons learned from Florida 
and what we can apply to Puerto Rico.
    Mrs. Demings. So you are working with the Secretary to 
utilize that program so that we----
    Secretary Nielsen. Of HUD, we are working with him and what 
he can do within its programs, yes, ma'am.
    Mrs. Demings. Do you feel like we are going to be able to 
reach an agreement?
    Secretary Nielsen. I would refer you to HUD, but I am happy 
to commit to you to continue to work with HUD.
    Mrs. Demings. OK. Thank you.
    Thank you so much, Mr. Chairman.
    Chairman McCaul. Thank you. Gentlelady yields.
    The gentleman from, where am I, Nebraska, the General Don 
Bacon is recognized.
    Mr. Bacon. Thank you, Mr. Chairman.
    Thank you, Secretary Nielsen, for your leadership. We 
appreciate all the folks that work at Homeland Security and 
what you are trying to do for our country and keeping us safe. 
We are grateful.
    I want to just follow up on the statement you just made. 
You just said 15 suspected terrorists try to cross our border 
every day. Is that correct?
    Secretary Nielsen. Who plan to travel or travel, yes, sir.
    Mr. Bacon. Right. Could you just detail for us at the 
unclassified level obviously, how are the Sunni extremists, 
whether it be ISIS or al-Qaeda, what have you seen with them 
trying to cross our borders? So if you could just--because I 
think most people in our country do not realize this effort is 
going on every day.
    Secretary Nielsen. Yes, sir. Just much more broadly because 
we are at----
    Mr. Bacon. Right.
    Secretary Nielsen. An unclassified level as you say. Let me 
just say that, you know, we have also seen--I am trying to 
think of what I can say. So we see these numbers in terrorists. 
We are happy to come and brief you on the breakdown.
    What I can also say is ISIS in social media has encouraged 
its followers to utilize our refugee program to come here. They 
in writing have encouraged people to come across our 
Southwestern Border. So we do see an uptick in any type of 
terrorist groups trying to come here. But I am happy to come 
brief you on the specific breakdowns.
    Mr. Bacon. Well, I think it would be important would be at 
the unclassified level, carefully vetted by you and your team, 
to put this out to our citizens because I think it is an 
important topic for our border wall and border security.
    But I think a lot of our folks think about the immigration 
issue when it comes to the wall and it becomes caught up in 
political controversy. But when you know that there is actual 
terrorists trying to cross and we have actual data, I think it 
would help shape this debate in a positive way. That would be 
my----
    Secretary Nielsen. Thank you for that.
    Mr. Bacon. My input. On a different topic, we know the 
Russians and Chinese are working to infiltrate our energy grid. 
Indeed, you know, the next December 7 will not be zeros with 
torpedoes coming in at Pearl Harbor. It is going to be preceded 
by rolling blackouts and the chaos that follows and some of our 
bases do not have the alternative power.
    Could you tell me what is Homeland Security doing to help 
build that resiliency and protection for our energy grid? How 
do we defend against this and how can we help?
    Secretary Nielsen. Yes. So I think you described the 
threat. I agree with your characterization. Unfortunately, 
itself is persistent. They are becoming much more nimble and 
creative. So what we do is we work with a variety of partners. 
We put out alerts.
    We put out a technical alert, a joint one actually with the 
United Kingdom just last week, about how we have seen nation-
states manipulating some of our systems to do some of the 
things you were just describing. We work very closely with 
State and local operators in the Department of Energy.
    We give them best practices. We share information. We have 
set up sector gridding councils with governance structures. We 
also work through fusion centers. But a lot of this is, if you 
will bear with the expression, basic hygiene.
    So we want to make sure that we are raising the level, 
everything from access control to passwords to basic malware 
detection. We have a system at DHS called the Automated 
Indicator Sharing program. We are encouraging more and more 
companies and entities to do that. So at machine speed we can 
advise them of incoming threat vectors.
    Mr. Bacon. Thank you. One last question. We are seeing 
criminal organizations and terrorists using more encrypted data 
in their communications devices. It is very hard to penetrate 
at times. They know what they are doing, and it impacts our law 
enforcement. What can we do to help you with this? No. 2, how 
do you partner with, say, DOJ or local and State authorities? 
Because they are the ones often caught having to deal with 
this.
    Secretary Nielsen. Yes. As we all know, this is a tough 
area of how to balance the conversation around encryption. We 
do work very closely with DOJ. DHS, as you know, we have many, 
many law enforcement men and women with particular mission sets 
that require their own use of encrypted data, so we have both 
sides of the debate, if you will.
    Part of this is increasing and going back to human 
intelligence so that we can really track those that we are 
trying to track, understand who they communicate with, who they 
are participating with. We certainly take that approach in 
TCOs, for example. So some of this is technological solutions 
and we are working with the private sector on that. But some of 
it is going to good-old, you know, back to good-old detective 
work.
    Mr. Bacon. Let us know, too, how we can facilitate or make 
this an easier problem for you all to tackle.
    Secretary Nielsen. Thank you.
    Mr. Bacon. OK.
    Mr. Chairman, I yield back. Thank you. I am under my five.
    Chairman McCaul. Yes, congratulations. Nice job.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Madam Secretary, did you testify that 90 percent of 
unaccompanied minors do not show up to court?
    Secretary Nielsen. So I believe what has been referenced is 
my testimony in the last hearing.
    Ms. Barragan. What was the percentage you said a minute 
ago? Was it 90 percent?
    Secretary Nielsen. I had not said that, but I think people 
were quoting me----
    Ms. Barragan. OK. Well, I just wanted to correct the record 
because there is so much false information that comes out of 
this administration, and this is one of those. My records, 
which is the Department of Justice Immigration Court's data, 
states that 69 percent show up to court.
    When unaccompanied minors have counsel, 95 percent show up 
to court. As somebody who has actually represented an 
unaccompanied minor in an immigration proceeding, I think maybe 
that sends a message that we should make sure unaccompanied 
minors have access to counsel.
    Your predecessor, Secretary Kelly, he committed to meeting 
with the Congressional Hispanic Caucus regularly. Will you 
commit to meeting with the Congressional Hispanic Caucus 
regularly like your predecessor?
    Secretary Nielsen. I would be happy to.
    Ms. Barragan. Great. Hopefully, we can get that scheduled 
soon because I know since you have been sworn in we have not 
seen you come in yet. So thank you for that.
    Back in mid-January, my friend, Senator Cory Booker, had 
asked if you had met with any DACA recipients. At that time, 
you mentioned you had not. Have you met with any DACA 
recipients since that time?
    Secretary Nielsen. I have not.
    Ms. Barragan. Great. Thank you.
    My colleague earlier, Miss Jackson Lee, had mentioned this 
recent court decision that came out this week about DACA 
applications, and I pulled the decision. Just to clarify for 
the record, the order says, ``DHS must accept and process new 
as well as renewal DACA applications.'' This is in the court 
order.
    Now, that is the actual court order. The court order goes 
on to say that they are going to have a stay for 90 days so DHS 
can explain why they ended the program because, you know, the 
court, it was arbitrary and capricious.
    Madam Secretary, you are a head of Homeland Security. Do 
you have a better explanation?
    Secretary Nielsen. I am sorry, for the court's decision?
    Ms. Barragan. Yes. The court decision said----
    Secretary Nielsen. Yes----
    Ms. Barragan. That you had 90 days----
    Secretary Nielsen. Right.
    Ms. Barragan. To better explain why the program ended 
because what was given before was insufficient. I am asking 
you----
    Secretary Nielsen. I am sorry.
    Ms. Barragan. Do you have a better explanation?
    Secretary Nielsen. The explanation is very simple. It was 
an inappropriate use of Executive power.
    Ms. Barragan. Do you have a better explanation? Because the 
court has already ruled that that explanation was insufficient. 
Do you have a better explanation?
    Secretary Nielsen. Sitting here today, we are reviewing the 
court decision, as you know, that just came down and we will be 
prepared to provide the court the requested information.
    Ms. Barragan. OK. So you do not have one yet? Thank you. 
Thank you very much.
    Secretary Nielsen. I do not review cases----
    Ms. Barragan. I am looking forward----
    Secretary Nielsen [continuing]. As you know the Justice 
Department does, so I defer to the Justice Department on 
arguing the cases on behalf of the U.S. Government as we do 
with all cases. But we----
    Ms. Barragan. Correct. But the Department of Homeland 
Security enforces them and I think the court order is very 
specific that----
    Secretary Nielsen. We will comply. We will provide them the 
information requested.
    Ms. Barragan. Great. Madam Secretary, you are responsible 
for more than 240,000 employees at the Department of Homeland 
Security. Is that correct?
    Secretary Nielsen. Around that, yes.
    Ms. Barragan. Many of those employees have security 
clearances. Is that correct?
    Secretary Nielsen. Many of them do, yes.
    Ms. Barragan. OK. Back in March, the Ranking Member, Mr. 
Thompson, and I sent you a letter, this letter that I am 
holding up here, asking you some questions about your handling 
of security clearance. You have not responded to that. So I am 
going to go ahead and see if I can get some answers here today. 
Were you aware of the allegations of domestic abuse by Mr. 
Porter prior to his resignation in February 2018?
    Secretary Nielsen. Was I aware? Whatever was in the press 
is what I was aware of.
    Ms. Barragan. So you are saying as a deputy chief, as a 
deputy working under Mr. Kelly in the White House that you were 
not aware of allegations of domestic abuse by Mr. Porter?
    Secretary Nielsen. I was the deputy chief of policy, and so 
I did not review nor access clearance request records or 
adjudications. That was not part of my job.
    Ms. Barragan. OK, so the New York Times reporting is 
inaccurate about this, that you as the deputy chief of staff, 
in November when the FBI had a detailed report that was 
submitted to the White House, you are saying you did not see it 
and were not aware of it?
    Secretary Nielsen. I did not see any FBI report. No, I did 
not.
    Ms. Barragan. OK. So you did not take any action at all 
regarding Mr. Porter's security clearance?
    Secretary Nielsen. I would not have. That was not in my job 
description.
    Ms. Barragan. What is the policy at Homeland Security now 
on interim security clearances?
    Secretary Nielsen. So we look at that very carefully. We 
restrict access. When somebody has an interim, there is 
particular circumstances which someone might be granted, but 
mostly it takes a long time, as you know, to go through the 
adjudication process, and so we reserve bringing somebody on-
board fully in most cases until their clearance is fully 
adjudicated.
    Ms. Barragan. Great. Can you commit to responding to this 
letter of March 5 in writing please?
    Secretary Nielsen. Yes, I can.
    Ms. Barragan. Great, thank you.
    I yield back.
    Chairman McCaul. Gentlelady yields back.
    The gentleman from Virginia, Mr. Garrett is recognized.
    Mr. Garrett. Thank you, Mr. Chairman.
    Thank you Madam Secretary. I want to go quickly first into 
a particular and specific case with regards to USCIS and a 
constituent of mine whose initials are J.B. I would like to 
hold up this documentation that outlines J.B.'s efforts to 
adopt a young woman from Senegal.
    I think he might have had conversations with some of my 
peers as it relates to this process. I would describe it in the 
interest of conserving my limited time as tragic and ridiculous 
what this woman has been through to include over a dozen trips 
to the nation of Senegal.
    An order from NBC, the National Benefits Council under 
USCIS that suggests that they cannot complete the adoption of 
this young girl who has known no family but this particular 
woman in her life while she is in the country, thus regarding 
or creating a circumstance wherein this 6-year-old child needs 
to be sent back to Africa to an orphanage so that we can 
complete the paperwork?
    I do not take this tone with you to be derisive, but I 
would ask for your specific intention. I presume there are 
individuals who are here with you today who are staffing you. I 
want to make sure this paper gets in their hand.
    Secretary Nielsen. Yes, sir.
    Mr. Garrett. And ask for your specific attention. This is a 
tragedy of bureaucracy that has a human toll and impact. Moving 
on, and so I am going to set it there, please----
    Secretary Nielsen. Yes, you have my commitment to look into 
that, sir.
    Mr. Garrett. I would genuinely appreciate it, and thank you 
for all you do. I understand that there is 330 million 
Americans and this is but one aspiring American, but this is 
the right thing to do.
    Moving on there has been some interest expressed by some of 
my colleagues in prioritization as it relates to saving 
American lives. In fact, my good friend and colleague, Ms. 
Demings, pointed to tragedies in Las Vegas, Orlando, and at 
Parkland.
    Would it surprise you, Madame Secretary, if I were inform 
you that the Federal Government fatality reporting system 
indicates that about 20 percent of all automobile accidents 
fatalities involve illegal--I am sorry, unlicensed drivers and 
about half of those are illegals?
    Secretary Nielsen. I am not familiar with that statistic, 
but, no, that would not surprise me.
    Mr. Garrett. Would it surprise you with the number of total 
people killed, American citizens on American highways each year 
by illegals is estimated to be in the range of about 3,500?
    Secretary Nielsen. No, it would not surprise me.
    Mr. Garrett. OK. Would it surprise you to learn that in 
Federal incarceration we have 709,440 illegal people detained? 
Would that surprise you?
    Secretary Nielsen. No.
    Mr. Garrett. Would it surprise you to learn that the best 
estimate of State and local incarceration figures for illegals 
in this country is in the neighborhood of 297,000, thus 
creating an incarceration of over a million people who were in 
this country illegally?
    Secretary Nielsen. No.
    Mr. Garrett. Would it surprise you to learn that the cost 
to incarcerate those individuals in Federal and State 
facilities exceeds $31 billion, almost $32 billion dollars 
annually?
    Secretary Nielsen. That is a large number.
    Mr. Garrett. If we had $32 billion dollars annually to 
construct a Southern Border wall, could we keep those people 
out of this country, thus reducing the cost to incarcerate, and 
also saving upwards of 3,500 lives every single year of 
Americans who die at the hands of people here illegally on U.S. 
highways?
    Secretary Nielsen. We certainly could keep most of them out 
if we had a full border system, yes.
    Mr. Garrett. So if we protected our Southern Border and 
kept these million-incarcerated illegal criminal aliens out of 
our country, not only would we save lives, but we would also, 
presumably, if they were not here, they could not be arrested 
and incarcerated, save about $32 billion dollars a year in 2017 
data, if the numbers that I am giving you is correct?
    Secretary Nielsen. Yes.
    Mr. Garrett. Which would amount to over three-tenths of a 
trillion dollars in a decade. I just like to do this because I 
am a public-school kid, three thousand, thousand, thousand, 
thousand, million dollars, that we could save if we built this 
wall in the front end. OK.
    So if we were able to make this one-time commitment to 
secure our Southern Border would it, in fact, be a net cost-
saver paid for by, technically, I suppose, the countries from 
which these individuals come by virtue of the denial of 
admission of illegal individuals?
    Secretary Nielsen. It would save lives. It would save 
money, and it would protect our communities.
    Mr. Garrett. Ultimately, it would be paid for by the folks 
who currently are breaking our laws by virtue of their absence 
from our country, thus reducing the cost, would it not?
    Secretary Nielsen. Yes, sir.
    Mr. Garrett. OK. I am just having fun here. I think though 
that these points are points that need to be made.
    As it relates to St. E, and the Homeland facility 
consolidation plan, I would comment that I am as frustrated as 
anyone. Having said that, sometimes I think it is time to start 
anew.
    I read the OIG report with jaw agape when I read, ``That 
perhaps too much time, energy, and money was spent on the 
revitalizing Washington, DC neighborhoods in the St. E. 
renovations.'' Is it within the mission of Homeland Security to 
revitalize Washington, DC neighborhoods?
    Secretary Nielsen. No, sir.
    Mr. Garrett. Is this what the American taxpayer expects 
their money will be spent on when they support Homeland 
Security's expenditures in our budget?
    Secretary Nielsen. I highly doubt it.
    Mr. Garrett. I do as well. So I would point out, by virtue 
of that, I would confess my self-interest in the front-end 
facilities like, Vint Hill, which are very large former 
Government facilities located within 53 miles of where we sit, 
where you could come and build right now, and we would not have 
the cost overruns litigation that drive costs up. Editorial 
comment.
    Finally, I know I am running over, Mr. Chairman. We 
included in the authorizing budgetary language the ability to 
reinstate the waiver for returning workers under H-2B, because 
we wanted you to be able to do it.
    So allow me to join my colleague, Mr. Keating, from the 
other side of the aisle in saying, please help. It is not about 
foreign workers, it is about American businesses that have been 
around for decades that are shuddering because we cannot create 
a system and circumstance wherein they have reliability and 
predictability.
    Secretary Nielsen. I understand, and it should be a 
sustained program.
    Mr. Garrett. I am not, and again, not to attack you.
    Secretary Nielsen. No, no.
    Mr. Garrett. The reason----
    Secretary Nielsen. I agree. I asked for your help in 
passing it----
    Mr. Garrett. I am all over it.
    Secretary Nielsen. Through Congress so it is a sustained 
program.
    Mr. Garrett. I agree. However, just because we have not 
done our jobs yet, does not mean, given that we have given you 
the latitude within your executive purview to do this that we 
are not--I am asking you, humbly, to do that. I would point 
out, finally, that a returning worker by definition is someone 
who has already demonstrated your willingness to go home. Thank 
you so much.
    Thank you, Mr. Chairman.
    Chairman McCaul. Gentleman yields back.
    The gentleman from Rhode Island, Mr. Langevin is 
recognized.
    Mr. Langevin. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here, and for your 
testimony here today.
    So in your testimony before the Appropriations Committee 2 
weeks ago, you stated that the Department is diverting 
resources to help secure election infrastructure is certain. I 
applaud the focus on election infrastructure.
    Yet, the budget request included a modest $7 million dollar 
increase for the organization that carries out this analysis 
and support. I certainly commend the under secretary designate, 
Krebbs, for his prioritization of election assessments.
    But I worry about the strain on NCATs resources, especially 
since they are responsible for working with other areas of 
critical infrastructure, making them a priority customers as 
well. So is the request sufficient to support important 
assessments in other areas of critical infrastructure sectors?
    Secretary Nielsen. Thank you for the question, sir. So, 
what we are doing is, we are working--what we did receive in 
the Omnibus was, I believe 380 that went to EAC, that we will, 
in conjunction with them, help State and locals prepare. We 
also have $26 million that went to NPPD, and we will continue 
to work with that.
    My comments on prioritization were simply that we all, and 
I know you share this, take the election part very seriously. 
So in terms of processing vulnerability assessments, sending 
teams, doing pen testing, providing clearances, we are 
prioritizing the election's subsector.
    We will continue to work with our sector-specific agencies 
that also bring funding to the fight so that we can, together, 
have a holistic approach.
    Mr. Langevin. All right, so what data are you using to make 
sure that the NPPD has the resource it needs to respond to 
other areas of critical infrastructure so that it is not being 
ignored? Obviously, there is many attack factors that they have 
to defend----
    Secretary Nielsen. Yes.
    Mr. Langevin. Against, and how do we make sure those 
priority customers are not going to be ignored at the expense 
of the election security--which I certainly applaud the focus, 
particularly now, on security election infrastructure, but we 
also need to be focused on other areas of critical 
infrastructure.
    Secretary Nielsen. Yes, sir. You have my commitment.
    Mr. Langevin. OK. Thank you. Secretary Nielsen, your budget 
request shifts more than $40 million dollars in cyber research 
from the science and technology director at the NPPD.
    So I want to say up front that I am very concerned about 
this proposal, and I am skeptical about it. So what gives you 
confidence that NPPD, which has become primarily an operational 
organization, has the right tools and the people to take over 
this responsibility from S&T?
    Again, because this is an R&D function, for the most part, 
which S&T would be the appropriate place to do this, I worry 
that the high op tempo at NPPD will distract from the R&D work, 
or that the R&D worker is going to take a backseat.
    Secretary Nielsen. That is certainly not the intention, 
sir. Actually, it was to more closely align the needs of the 
critical infrastructure owners and operators in the 16 sectors 
to an R&D plan. So it was meant to make it more requirements-
based. It is a priority to do so. As you know, the threat 
continues to evolve very, very quickly.
    So, we need to be continuing to do R&D as we operate, 
innovate as we go. So, that was the idea behind moving it to 
NPPD. But happy to work with you on how we make sure that that 
is used in the appropriate way.
    Mr. Langevin. OK, I just want to be clear. I remain 
skeptical. This is a----
    Secretary Nielsen. Understood.
    Mr. Langevin. Very close and on top of it to make sure that 
it does not become an afterthought or ignored.
    Secretary Nielsen, some of my colleagues have introduced 
legislation to start a bug bounty program at DHS. Some in your 
Department have criticized the idea as being premature without 
robust vulnerability triage processes, and I certainly 
appreciate the concern.
    However, the newly-revised NIST security framework and 
other international standards, point to having a vulnerability 
disclosure program. So with or without a bounty as a best 
practice. The Department of Defense and General Services 
Administration, have both implemented successful policies.
    What in your mind would prevent DHS from having a 
vulnerability disclosure program that helps well-intended 
security researches inform DHS about problems in its own 
systems?
    Secretary Nielsen. So first of all, I agree that I think a 
bug bounty program is a very important tool. It is not a silver 
bullet, but nothing is. It is an important tool. We look 
forward to learning the lessons that DOD has learned in their 
own.
    We are watching the legislation that is going through 
Congress very closely. We will prepare on our side, to have the 
resources in planning that we need to then respond to what we 
find out through the bug bounty program.
    Mr. Langevin. OK. But we started to talk about two related, 
but different things. Yes, bug bounty program, but also a 
vulnerability as a disclosure vector so that when researches 
find a vulnerability, they can report it to someone.
    Secretary Nielsen. Yes.
    Mr. Langevin. Right now, there is nobody home. In other 
words, there is the security researchers do not have a way to 
contact to DHS and make sure that DHS will then follow up on 
that program.
    So bug bounty program is good, I want to say let us do 
that. But why do not you have a vulnerability disclosure 
program?
    Secretary Nielsen. Yep.
    Mr. Langevin. The Department of Defense does, the General 
Services Administration does, DHS does not.
    Secretary Nielsen. We do have a way in which they can 
contact us and actually receive calls very frequently within 
the NCIC or directly to US-CERT. We are formalizing the 
program.
    Mr. Langevin. OK. US-CERT helps outside agencies, OK. So if 
someone finds a vulnerability, for example, in medical device. 
They would call US-CERT, and US-CERT can work to make sure that 
they are put in touch with the right person at the company to 
make sure we hear that vulnerability. The problem is, that is 
not the case. US-CERT does not do that for vulnerability 
disclosures within DHS.
    Secretary Nielsen. No, they pass it to the correct people. 
I am just suggesting the different ways that you can get into 
DHS to report things like that. But we are formalizing the 
program. It is very important. I do not disagree at all.
    We need to be able to not only notify victims, which we do 
in conjunction with FBI. But we need to in an appropriate way 
balancing it through the inner agency process, disclose 
vulnerabilities.
    Mr. Langevin. Could you work with us to make sure----
    Secretary Nielsen. Absolutely.
    Mr. Langevin. We, that they develop this type of a 
vulnerability disclosure program at DHS?
    Secretary Nielsen. Yes.
    Mr. Langevin. All right. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Gentleman yields. Last but not least, the 
gentleman from Texas, Mr. Ratcliffe, recognized.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here today. I very 
much appreciate your testimony that you have given on all 
aspects of how DHS is prioritizing resources to accomplish the 
President's agenda for safety and security of the American 
people.
    As the Chairman of the Cybersecurity Subcommittee, I want 
to focus my few minutes with you on this particular area. I 
will start out by saying, with all due respect to your 
predecessors, who have had considerable talents and abilities, 
I am of the opinion that you have brought with you to this 
office a greater knowledge and appreciation, and are more 
steeped in cybersecurity than anyone before you.
    I want to help you take advantage of that. I know we share 
the common goal of wanting to improve DHS's ability to impact 
the Nation's cyber posture and defense because I know we also, 
I think, agree that cybersecurity poses one of our greatest 
National security threats right now.
    Secretary Nielsen. Yes, sir.
    Mr. Ratcliffe. So in the spirit in wanting to help you be 
successful, one of my priorities, early in this term, has been 
to investigate the Continuous Diagnostics and Mitigation 
program. We have held two hearings, we have had a number of 
briefings, countless meetings.
    I am of the opinion that CDM is certainly a value-add to 
our Federal cybersecurity, a way to fortify our Government 
networks and systems. So let me start out and ask you if you 
share that opinion?
    Secretary Nielsen. I do. I think it is a very--and part and 
parcel of one of our tools to find out what is on our network, 
who is on our network, and as you know, we are moving now, 
fourth phase toward data.
    Mr. Ratcliffe. So, looking then toward the continued 
success, hopefully, of CDM, help me make the case to 
appropriators, to other Members on this committee, as well as 
to the administration about what we can do to ensure the value 
of the CDM program so that it is reflected in future budget 
cycles.
    Secretary Nielsen. Yes. Thank you. So we hope through the 
newest vehicle, as you know, it is called the defend vehicle, 
we hope to be much more agile, and we hope to be able to 
utilize that to not only be up on the emerging threats, but to 
use it to understand the threat patterns that we can more 
quickly come to you with requests for additional resources and 
tools.
    Mr. Ratcliffe. One of the other priorities that the 
Chairman and I have spent considerable time on, and we will 
continue to do so, is DHS's cyber work force.
    Secretary Nielsen. Yes.
    Mr. Ratcliffe. In light of the growing cyber threat 
landscape, I think it is imperative the DHS be properly staffed 
with an essential cyber work force to meet the cyber mission, 
and to counter what are, obviously, some very highly 
sophisticated cyber adversaries.
    I know you have not been the Secretary for that long, but 
early on, are there programs or initiatives that you have 
identified as being most effective in recruiting and retention?
    Secretary Nielsen. We have. So the NICE, the acronym NICE, 
program out of NIST and others, which helps us identify the 
unique school--excuse me, the unique skill sets that we need to 
hire, is part of it.
    But the other part is, helping, frankly, folks within the 
community understand the mission. When they understand the 
threat and they understand the mission, I find that they are 
much more interested in coming to serve their Government. We 
cannot pay them the same amount, but we can provide them an 
opportunity to serve their country and to serve a mission.
    We are looking at retention, as you know, benefits, 
different programs, cross-training, what we can do on the back 
end. We are working on some pilots with industry to cross-train 
or do exchange so that we can both benefit from that 
experience.
    Mr. Ratcliffe. While I appreciate that, Madam Secretary, 
one of the things that we have already done, what Congress did 
in 2014, was to provide for some accepted service and expedited 
authorities to address this cyber shortage, if you will, and, 
you know, the indications are that that really has not been 
utilized or maximized to the extent that we would hope. Is that 
something that you are focused on?
    Secretary Nielsen. It is, and I do agree that it has not 
yet been utilized to the extent that it should be. So, yes, we 
are actively looking at that. We thank you for that, including 
the cyber pay that went with that.
    Mr. Ratcliffe. Well again, let me just tell you that I 
think we have a great opportunity under your leadership and 
stewardship, to improve the historical reputation of DHS, 
particularly as it relates to cyber issues. So I pledge to you 
that I want to help you in that regard to move the needle in a 
positive and appreciable way. So my door will be open to you in 
that regard.
    Secretary Nielsen. Well, thank you. I will take you up on 
that. I appreciate it.
    Mr. Ratcliffe. I yield back.
    Chairman McCaul. Gentleman yields back. You know, I also 
want to thank you for your leadership in cybersecurity.
    Yours, Madam Secretary.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Fitzpatrick.
    Mr. Fitzpatrick. Good afternoon, Madam Secretary. Thanks 
for being here today, and I think we all would agree that you 
have a very, very tough job. I just want you to know that we do 
appreciate the work. We appreciate the difficulty and the long 
hours and the stress. So keep at it. You are doing all right.
    I want to talk about school safety. I do not know if my 
colleagues have addressed this earlier, but certainly there is 
a local role to play. Certainly there is a State-wide role to 
play, and the Federal Government also has a role.
    What do you view as the responsibility of the Department of 
Homeland Security in helping us get to the point where we can 
keep our kids safe and secure in their schools?
    Secretary Nielsen. We actually have not discussed it. So 
thank you for raising the question. This is a very important 
topic and one on which we have spent a lot of focus.
    So we have created internal to DHS a task force, a working 
group. As you know, there are many parts of DHS that are part 
of this mission. So we do everything from active-shooter 
training to awareness, to helping States and locals build their 
alert warning capability.
    We have also just released a soft target crowded places 
plan just a couple weeks ago, which goes through best practices 
on what to do and how to respond. But importantly, how to 
prepare.
    We also are part of the Commission on School Safety that is 
led by the Department of Education, working very closely with 
the National Governor's Association and other associations.
    So we are sort-of bringing everything we can bring to bear. 
Information sharing. We do have suspicious activity reporting, 
as you know. So we are updating that process. Working with the 
State and locals training. So it kind of goes on and on. But, 
yes, you have a full commitment from DHS.
    Mr. Fitzpatrick. Is there a lack of funding that we need to 
be aware of?
    Secretary Nielsen. Much of this is what we already do, so 
it is just bringing it to bear and expanding the circles in 
which we have traditionally provided this information and this 
training, this exercises, et cetera. But if I find any, I will 
be happy to reach out to you and let you know.
    Mr. Fitzpatrick. Sure. I appreciate it.
    Second, and I know this has been discussed, but I want to 
raise it independently is the aviation security piece. We 
talked about the transition from the AT to the CT screening 
devices.
    Ideally, I mean, we want these in all of our airports, 
right? I think there is 450 or so in the country--airports that 
we have. I certainly hope that on this committee, that cost is 
never an issue here, because I cannot--with all the tens of 
billions of dollars we have spent on aviation security, I think 
this is money well-spent.
    My question is, is there any concern about the deployment 
and the time it would take, given that there is only five or so 
suppliers of these types of machines? So even if we had the 
full financial commitment, and the commitment of DHS to 
implement, are we looking at a lag time just based on the pure 
supply issue and the number of machines that we would need?
    Secretary Nielsen. There is a supply issue. We are working 
very closely with industry to speed up the deployments. But 
that is what I mentioned before. Our hope is that we do deploy 
the full amount that we have asked for in fiscal year 2019, and 
that we come back with a reprogramming request to do more. So 
part of this is not partnership with industry, and helping them 
in every way possible to go faster. It takes both of us 
together.
    Mr. Fitzpatrick. I yield back, Mr. Chairman.
    Chairman McCaul. Gentleman yields back. I think the Ranking 
Member would like to make some closing remarks.
    Mr. Thompson. Thank you, Mr. Chair.
    I have a record signed--for the record a letter signed by a 
number of Members of this committee, both Democrat and 
Republican, talking about the H-2B visa program, and its speedy 
implementation of it for this year, in fact you are signatory 
on the letter to the Secretary. I hope we will get some 
response.
    I have a letter from a constituent who had a business for 
quite a while, utilizing this program and is threatened to be 
closed because of their inability to access workers for this 
program. So I would like to submit these two for the record.
    Chairman McCaul. Now without objection, so ordered.
    Mr. Thompson. Thank you.
    [The information follows:]
         Letter Submitted by Ranking Member Bennie G. Thompson
                                    March 30, 2018.
The Honorable Kirstjen Nielsen,
Secretary, U.S. Department of Homeland Security, Washington, DC 20528.
The Honorable R. Alexander Acosta,
Secretary, U.S. Department of Labor, Washington, DC 20510.
    Dear Secretary Nielsen and Secretary Acosta: Now that the 
Consolidated Appropriations Act for fiscal year (FY) 2018 has been 
signed into law, we urge you to take decisive action without delay to 
ensure small and seasonal businesses in our states can get the workers 
necessary for a successful season. Due to the time-sensitive nature of 
seasonal businesses, we also urge you to take immediate steps to re-
open the petition process and adjudicate any pending labor 
certifications that demonstrate the requirements set forth in this 
legislation. We believe your Departments can take these actions, using 
the authority provided under this law, without the need for additional 
rulemaking.
    Under Division M, Extensions, Title 11, Section 205 of the FY 2018 
Consolidated Appropriations Act (P. L. 115-141), the Secretary of 
Homeland Security, in consultation with the Secretary of Labor, has the 
authority to approve petitions for admission under the H-2B 
Nonimmigrant Temporary Worker program up to the new statutory level set 
in the bill for the current fiscal year.
    Small and seasonal businesses help our local communities thrive. In 
fact, small businesses across the country often rely on seasonal H-2B 
workers to help them operate during their peak seasons throughout the 
year. As you know, the statutory allocation for H-2B visas for the 
current fiscal year was reached on February 27, 2018. As a result, many 
small businesses are left unable to get the workers they need, leading 
to potential reductions in operating hours or closures. Under the 
authority provided by Congress, the Department of Homeland Security can 
immediately help businesses hire the workers they need and help local 
economies as they head into their peak seasons.
    We encourage you to make efforts to allow for efficient processing 
of additional H-2B visa applications and request that you inform us as 
soon as possible as to the process you will use to issue additional H-
2B visas and the number of additional H-2B visas you intend to issue. 
This will not only help to alleviate concerns among employers, but it 
will also reduce the inevitable time-consuming inquiries to your 
agencies. By taking the necessary steps now, your agencies can 
streamline the process and help employers get their employees sooner.
    Thank you for your attention to this important issue. We thank you 
for your consideration of this request and urge that you act as soon as 
possible.
            Sincerely,
Jack Bergman
Steve Chabot
Andy Harris, M.D.
William R. Keating
Chellie Pingree
Ralph Abraham, M.D.
Mike Bishop
Lisa Blunt Rochester
Susan W. Brooks
Anthony G. Brown
Ken Buck
Michael E. Capuano
Jim Renacci
Tom Rice
Thomas J. Rooney
John H. Rutherford
Tim Ryan
Mark Sanford
Pete Sessions
Carol Shea-Porter
John Shimkus
Bill Shuster
Chris Stewart
Steve Stivers
Scott Tipton
Dave Trott
Mia Love
Frank Lucas
Tom MacArthur
Thomas Massie
David B. McKinley, P.E.
Patrick Meehan
Paul Mitchell
John Moolenaar
Markwayne Mullin
Richard M. Nolan
Erick Paulsen
Stevan Pearce
Mike Simpson
Jared Polis
Mike Coffman
Tom Cole
Chris Collins
Barbara Comstock
K. Michael Conaway                  Ryan A. Costello
                                    Kevin Cramer
                                    Carlos Curbelo
                                    Diana DeGette
                                    Mike Doyle
                                    Blake Farenthold
                                    Ed Perlmutter
                                    Thomas A. Garrett, Jr.
                                    Bob Gibbs
                                    Trey Gowdy
                                    H. Morgan Griffith
                                    Clay Higgins
                                    Bill Huizenga
                                    Bill Johnson
                                    Filemon Vela
                                    David P. Joyce
                                    Adam Kinzinger
                                    Ann McLane Kuster
                                    Doug Lamborn
                                    Leonard Lance
                                    James R. Langevin
                                    Robert Latta
                                    Billy Long
                                    Fred Upton
                                    David G. Valadao
                                    Tom Marino
                                    Ann Wagner
                                    Tim Walburg
                                    Peter Welch
                                    Brad R. Wenstrup
                                    Robert Wittman
                                    Kevin Yoder
                                    Lee Zeldin
                                    David N. Cicilline
                                    Michael T. McCaul
                                    Claudia Tenney
                                    Bruce Poliquin
                                    Tom Emmer
                                    Steve Knight
                                    Rob Woodall
                                    Mike Johnson
                                    Frank A. LoBiondo
                                    Andy Barr
                                    Bill Flores
                                 ______
                                 
         E-mail Submitted by Ranking Member Bennie G. Thompson
                Wednesday, April 25, 2018 at 5:21:59 PM
Subject: H2B Cap Relief
Date: Tuesday, April 10, 2018 at 2:05:02 PM Eastern Daylight Time
From: Heather Walker
To: Henderson, Claytrice
Hello Claytrice,
    I seriously can not thank you enough for taking my call and listing 
to the concerns for the H2B program. First, I would like to personally 
assure you and Congressman Thompson that we would much rather hire US 
workers since the H2B program is such a large expense for a small 
business. However, after running job advertisements in the local paper 
as well as through the WIN Job center we have had ZERO applicants over 
the past two years! So, we truly have no other option but to apply for 
guest workers through the H2B program!
    We were so excited to see the wording for the H2B cap relief in the 
Omnibus bill signed on March 23rd. We finally thought YES, WE ARE GOING 
TO BE ABLE TO GET OUR WORKERS! However, we quickly learned just because 
the wording was included in the bill didn't necessarily mean Secretary 
Neilson would release them. The wording in the Omnibus bill for the 
maximum amount would satisfy the demand for all. As the Spring season 
advances we are sitting here struggling to keep our heads above water. 
I understand we are just a small business, but it takes all the small 
businesses as well as the larger corporations to keep America and the 
Mississippi Delta going!
    We have been in business for over 21 years, and we have grown our 
business into a business in which we are very proud. We have worked 
hard for everything we have, and now we are at a point where we are 
going to have to choose which accounts to release due to the lack of 
workers. This is not fair to us, our customers or our US workers. With 
us having to scale our business back it will also effect the economy of 
our community. We try to buy everything we can locally from equipment, 
supplies, fuel, parts, etc. Our business provides business to other 
businesses. It is so dishearten to feel as though you have worked so 
hard for something and now it is just slipping away!
    So, my request is to Please, Please, Please ask Congressman 
Thompson to ASK Secretary Neilson to release the VISAs as soon as 
possible!!! This will be the only way we can sustain our business!!!!!
                                         Sincerely,
                                             Heather and Bob Walker

    Chairman McCaul. I mean, I am glad you raised that issue. I 
have had a lot of Members come up to me asking about the H-2B 
program. Would you mind addressing that, and what is the 
current status?
    Secretary Nielsen. Sure. So we have finalized, as you know 
the law requires us to recruit the Department of Labor. We have 
done that. We have met with, and I have talked to a variety of 
Members of Congress, Ranking, who share your concerns. They 
have very specific companies within their districts who are at 
threat to go out of business if they do not receive additional 
visas.
    So we are very aware. We have finalized our recommendation. 
It is working its way through the process. But we hope that we 
will be able to issue additional visas next month.
    Chairman McCaul. OK. Excellent. Let me also mention--I know 
UAS did not come up today, but I know it is a very important 
issue to both of us and in the United States' security. These 
drones crossing across the border and domestically, it poses a 
grave threat. I can assure you that we are working on draft 
legislation right now, and working with your staff, Madam 
Secretary, to accomplish that goal.
    So I want to thank you for being here. I want to also thank 
you for your public service. You know, it is a tough job, and I 
think a lot of people look at Homeland Security, and all they 
think of is border and immigration, and yet, it is so many 
other things, as well, that you have on your plate. I want to 
work with you to make your job successful.
    So with that, the hearing record will be open for 10 days 
if there are any additional questions. Without objection, the 
committee stands adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Michael T. McCaul for Honorable Kirstjen M. 
                                Nielsen
    Question 1a. Definition and Country List: In general, a Special 
Interest Alien (SIA) is a migrant from a country outside the Western 
Hemisphere with terrorist or security concerns who travels through the 
Hemisphere to the United States.
    Does the U.S. Government or DHS have an official definition for the 
term ``Special Interest Alien?'' Do the DHS components utilize a 
uniform definition?
    Answer. Response was not received at the time of publication.
    Question 1b. Does DHS maintain an official list of countries 
considered ``special interest'' and what is the context of such a 
designation?
    Answer. Response was not received at the time of publication.
    Question 1c. How does the definition and country list, or lack 
thereof, impact the interagency effort to combat this threat? What are 
the workarounds, if any?
    Answer. Response was not received at the time of publication.
    Question 2a. Current Threat: Last year, former Secretary Kelly and 
then-Acting Secretary Duke emphasized the threat from SIAs, especially 
the connection with terrorists, transnational criminal organizations 
(TCO), and weapons of mass destruction (WMD). In September 2017, Sec. 
Duke stated that ``TCOs pose a persistent National security threat to 
the United States. They provide a potential means for transferring 
weapons of mass destruction to terrorists or for facilitating 
terrorists' entry into the United States. We have already seen aliens 
with terror connections travel from conflict zones into our Hemisphere, 
and we are concerned that TCOs might assist them in crossing our 
borders.''
    Has there been any change to the threat or DHS's view of the 
threat?
    Answer. Response was not received at the time of publication.
    Question 2b. Is there anything else you would like to add to your 
comments about the exploitation of these illicit migration routes by 
smugglers, terrorists, and TCOs?
    Answer. Response was not received at the time of publication.
    Question 2c. What is being done at DHS to counter the threat posed 
by SIAs?
    Answer. Response was not received at the time of publication.
    Question 3a. Repatriation: There are numerous security and cost-
saving benefits to third-country repatriation of migrants, where for 
example, Panama or Colombia is able to repatriate migrants back to 
their home countries before they even reach the United States.
    What is the current status of third-country repatriation?
    Answer. Response was not received at the time of publication.
    Question 3b. What can the United States do to improve and support 
this process?
    Answer. Response was not received at the time of publication.
    Question 3c. Is it a funding/resource issue or a capacity issue for 
these countries?
    Answer. Response was not received at the time of publication.
    Question 3d. What are the proper roles of DHS and the State 
Department in this effort? Is there communication between the two?
    Answer. Response was not received at the time of publication.
    Question 4a. Information Sharing: As you know, information sharing 
is an essential component of combatting terrorism and transnational 
crime, especially the sharing of biometric information. The Biometric 
Identification Transnational Migration Alert Program (BITMAP) and the 
Biometric Data Sharing Program (BDSP) are two critical programs that 
enable the U.S. Government and partner nations to identify such 
threats.
    What is your assessment of the current relationship between DHS and 
the State Department in identifying SIAs and related threats, 
especially regarding biometric information sharing?
    Answer. Response was not received at the time of publication.
    Question 4b. Besides BITMAP and BDSP, what are other key DHS and 
State Department programs that facilitate SIA identification?
    Answer. Response was not received at the time of publication.
    Question 4c. What is the current information-sharing strategy 
across the U.S. Government to ensure that information is best gathered 
and shared to counter this growing and dynamic threat?
    Answer. Response was not received at the time of publication.
    Question 4d. How does DHS work with the State Department and the 
intelligence community in the Western Hemisphere to stop nefarious 
actors before they reach our borders?
    Answer. Response was not received at the time of publication.
    Question 5a. Relationships: Efforts to combat terrorism and 
transnational crime often rely on strong relationships with our foreign 
partners.
    How would you characterize the U.S. Government's relationship with 
Mexico, Central America, and South America in the identification of 
SIAs?
    Answer. Response was not received at the time of publication.
    Question 5b. How can we improve these relationships?
    Answer. Response was not received at the time of publication.
Questions From Ranking Member Bennie G. Thompson for Honorable Kirstjen 
                               M. Nielsen
    Question 1. Reports indicate that since October, U.S. Customs and 
Border Protection has forcibly separated more than 700 migrant children 
from their family members along the Southern Border. More than 100 of 
those children are under the age of 4. How many of the 700 cases since 
October have proven to be confirmed instances where human traffickers 
attempted to use children to cross the border and gain illegal entry? 
Please provide relevant information on any such cases.
    Despite Department of Justice statistics to the contrary, you 
testified that 90 percent of unaccompanied minors never show up for 
their scheduled court dates. Please cite the relevant data and explain 
in writing how you arrived at this percentage.
    The vast majority of property along the Southwest Border is owned 
by States, Tribes, and private citizens. In Texas, the Federal 
Government owns just 100 miles of the 1,254-mile border. How much land 
DHS will need to take from private citizens to build the border wall 
system? What is the expected cost?
    Answer. Response was not received at the time of publication.
    Question 2. Please provide a status update on the statutorily-
mandated delivery of the Quadrennial Homeland Security Review. When 
will it be delivered to Congress?
    Answer. Response was not received at the time of publication.
    Question 3a. On March 19, 2018, The Center for Constitutional 
Rights and Color of Change filed a lawsuit against DHS to release the 
contents of the agency's redacted memo entitled the ``Race Paper.''
    What were the origins of this paper?
    Answer. Response was not received at the time of publication.
    Question 3b. What DHS office produced it? Who signed off on the 
paper?
    Answer. Response was not received at the time of publication.
    Question 3c. Does this paper provide a framework for evaluating the 
alleged radicalization of black activists or the surveillance of 
protected speech and activism of black activists and allies? If so, 
what is the framework?
    Answer. Response was not received at the time of publication.
    Question 3d. What surveillance tactics does this paper recommend, 
offer, or provide to DHS?
    Answer. Response was not received at the time of publication.
    Question 3e. Does this race paper provide classifications of 
Domestic Terrorists/Terrorism? If so, what are they? How are they 
determined?
    Answer. Response was not received at the time of publication.
    Question 3f. Was the ``Black Identity Extremism'' report influenced 
by this ``Race Paper'' or vice versa?
    Answer. Response was not received at the time of publication.
    Question 4a. I am concerned about the disproportionate number of 
lobbyists President Trump has put in political positions and the 
potential for conflicts of interest and corruption, despite his 
campaign promise to ``drain the swamp.'' Between 2012 and 2017, 7 
political appointees at TSA had relationships with 27 organizations 
that could trigger recusals under ethics rules. In just over a year 
since President Trump took office, 9 individuals who could have 
conflicts with 70 organizations have already cycled through TSA as 
political appointees.
    How have recusals affected the Department's ability to carry out 
its mission effectively?
    Answer. Response was not received at the time of publication.
    Question 4b. Please provide the names of DHS political appointees 
and the issues from which they have been recused.
    Answer. Response was not received at the time of publication.
     Questions From Honorable Lou Barletta for Kirstjen M. Nielsen
    Question 1a. Secretary Nielsen, can you detail why significant 
investment in border infrastructure is necessary and essential to our 
National security?
    Answer. Response was not received at the time of publication.
    Question 1b. How will a secure border help enhance the efficiency 
of immigration and save taxpayer dollars?
    Answer. Response was not received at the time of publication.
    Question 2a. On a different note, following the tragic shooting in 
Parkland, Florida, I called for schools to be classified as ``critical 
infrastructure.'' Currently, sectors ranging from casinos and concert 
venues to water treatment facilities and banks fall under this 
designation.
    What steps are the Department taking to better secure our schools?
    Answer. Response was not received at the time of publication.
    Question 2b. Do you believe that schools should be classified as 
critical infrastructure; if not, what would prevent them from being 
labeled such?
    Answer. Response was not received at the time of publication.
  Questions From Honorable Sheila Jackson Lee for Kirstjen M. Nielsen
    Question 1. Please explain what the Department intends to do to 
address assaults on Border Patrol agents. What would you recommend 
Congress do to support these efforts?
    Answer. Response was not received at the time of publication.
    Question 2. Please provide my office with an update on the 
Department's effort to reopen and review Jose Escobar's deportation 
case.
    A third court ruled against the administration's decision to 
rescind the Deferred Action for Childhood Arrivals (DACA) program in 
April. U.S. District Court Judge John Bates said that the DHS's legal 
explanation for its decision to end DACA was ``arbitrary and 
capricious.'' If DHS does not come up with a strong explanation for the 
rescission within 90 days, the entire program will be restored. Do you 
have a stronger explanation for the rescission of this program?
    Answer. Response was not received at the time of publication.
      Questions From Honorable John Katko for Kirstjen M. Nielsen
    Question 1a. Can you describe the current relationship for testing 
new equipment between DHS S&T and TSA?
    Answer. Response was not received at the time of publication.
    Question 1b. Are there any cost-sharing programs that allow both 
organizations to mitigate overall financial exposure?
    Answer. Response was not received at the time of publication.
    Question 1c. Is DHS working to improve overall collaboration for 
research, design, testing, and evaluation of new technologies across 
all DHS components?
    Answer. Response was not received at the time of publication.
    Question 2. As you may be aware, TSA currently has used a 
personalized training screening tool for X-ray machines. As TSA moves 
to CT, does TSA have plans to adapt these training tools for CT?
    Answer. Response was not received at the time of publication.
    Question 3a. You mentioned in your remarks, preparedness programs 
save approximately 4 times as much money when compared to response 
programs. As you may be aware, up-State New York has been hit with 
several successive storms that fail to reach the designated minimum 
threshold.
    Does DHS, through FEMA, plan to reassess this minimum?
    Answer. Response was not received at the time of publication.
    Question 3b. Does DHS have any plans to support areas that are hit 
by several successive severe weather patterns but fail to reach the 
minimum about for the DRF?
    Answer. Response was not received at the time of publication.
   Questions From Honorable James R. Langevin for Kirstjen M. Nielsen
    Question 1. You have recently spoken about the importance of 
maintaining resilience in our Nation's critical infrastructure. What 
specific operational role do you envision for the Department in 
building resiliency into our critical infrastructure?
    Answer. Response was not received at the time of publication.
    Question 2a. As you, Under Secretary-Designate Krebs, and Assistant 
Secretary Manfra have all recently testified, the prioritization of 
risk and vulnerability assessments (RVAs) for election systems has come 
at the expense of RVAs for other critical infrastructure sectors and 
Federal agencies.
    How many critical infrastructure and Federal agency RVAs have been 
delayed as a result of prioritization of election-related RVAs?
    Answer. Response was not received at the time of publication.
    Question 2b. What is the expected length of the delays to these 
RVAs?
    Answer. Response was not received at the time of publication.
    Question 2c. What critical infrastructure sectors and agencies have 
had their RVAs delayed?
    Answer. Response was not received at the time of publication.
    Question 2d. When do you expect the backlog of RVAs to be cleared?
    Answer. Response was not received at the time of publication.
    Question 2e. What additional resources would NCATS require to meet 
the increased demand from States and localities for RVAs, without this 
impact to other critical infrastructure sectors and Federal agencies?
    Answer. Response was not received at the time of publication.
    Question 3a. One of DHS's key tools in ensuring the cybersecurity 
of Federal networks is the Binding Operational Directive, of which DHS 
has released only 6 since 2015.
    How does DHS go about crafting these Directives?
    Answer. Response was not received at the time of publication.
    Question 3b. What--if any--other agencies assist in that process?
    Answer. Response was not received at the time of publication.
    Question 3c. What threshold of concern does DHS use to decide a 
Binding Operational Directive is necessary?
    Answer. Response was not received at the time of publication.
    Question 3d. How effective have DHS's and OMB's efforts been to 
hold agencies accountable for satisfying the requirements in those 
directives?
    Answer. Response was not received at the time of publication.
    Question 4. Much of DHS's mission requires close coordination with 
other agencies, especially with respect to cybersecurity. How has the 
Department's ability to synchronize its cyber mission with other 
agencies been affected by the recent high rate of turnover at the 
National Security Council?
    Answer. Response was not received at the time of publication.
    Question 5. You recently spoke about two roles the Government plays 
to improve National cybersecurity. The two roles, which I agree are 
critical, were equipping suppliers to make their products and services 
more secure, and educating the public to become more security-conscious 
consumers. One role you did not endorse is the Government's 
responsibility to ensure our critical infrastructure remains secure. Do 
you believe DHS has sufficient authority to hold operators of critical 
infrastructure accountable for implementing adequate cybersecurity 
controls?
    Answer. Response was not received at the time of publication.
    Question 6a. In this year's FISMA report card, the DHS Inspector 
General rated the Department not effective in 3 of 5 cybersecurity 
functions: Protect, detect, and recover. It would seem important for 
DHS to have its own cyber house in order before advising others on 
their security. Given the importance of these findings,
    What specific actions are you taking to correct these deficiencies?
    Answer. Response was not received at the time of publication.
    Question 6b. How frequently are you being briefed on progress?
    Answer. Response was not received at the time of publication.
Questions From Honorable Daniel M. Donovan, Jr. for Kirstjen M. Nielsen
    Question 1a. Secretary Nielsen, earlier this week, my subcommittee 
held a field hearing in my district, which focused on the importance of 
Federal counterterrorism support to high-risk urban areas, like New 
York City.
    Witnesses representing law enforcement and first responders in New 
York and New Jersey discussed the importance of intelligence 
information sharing and the homeland security grant programs to their 
operations. We must fully fund these grant programs, particularly in 
light of the evolving terrorist threat.
    Another topic of discussion at the hearing was the difficulty in 
securing mass transit systems. The Transit Security Grant Program is 
vital to those efforts, but the overall focus on surface transportation 
security programs dwarfs that of aviation security. Our witnesses 
expressed great concern about mass transit security, and that is a 
concern that I share, especially in light of the attempted bombing at 
the New York City Port Authority Terminal in December.
    Can you please speak to what more we can do to enhance the security 
of this transportation mode?
    Answer. Response was not received at the time of publication.
    Question 1b. How is DHS supporting information sharing when it 
comes to threats to mass transit?
    Answer. Response was not received at the time of publication.
    Question 2a. The President's budget request for the Countering 
Weapons of Mass Destruction Office proposes changes to the Securing the 
Cities Program, a program that has proven very successful in New York 
City.
    We are hearing concerns from Securing the Cities jurisdictions 
about proposed changes in permissible equipment, to whom that equipment 
would be provided, and the impact that would have on jurisdiction's 
ability to conduct radiological detection and response operations.
    This committee has long supported the Securing the Cities Program, 
as it is currently operating, and the House passed my legislation 
authorizing the program last year.
    What changes is the Department proposing to the program?
    Answer. Response was not received at the time of publication.
    Question 2b. What outreach have you done to participating 
jurisdictions to solicit their feedback?
    Answer. Response was not received at the time of publication.
    Question 2c. How are you addressing concerns that the Department is 
receiving from STC jurisdictions?
    Answer. Response was not received at the time of publication.
    Question From Honorable William Keating for Kirstjen M. Nielsen
    Question. Please provide the time frame DHS is using to comply with 
the requirement included in the fiscal year 2018 omnibus to increase 
the caps on H-2B visas, specifically for returning workers.
    Answer. Response was not received at the time of publication.
  Questions From Honorable John H. Rutherford for Kirstjen M. Nielsen
    Question 1a. We have 14 ports in Florida that bring people and 
cargo from around the world into Florida, including Jaxport and the 
Port of Fernandina in my district. It is vital that these ports are 
properly staffed to ensure the safety of our Nation. Currently across 
Florida, Customs and Border Patrol agents are working overtime, moving 
between airports and seaports to ensure coverage.
    Are there plans to hire more CBP staff to help secure our ports of 
entry?
    Answer. Response was not received at the time of publication.
    Question 1b. How long do you expect it to take to resolve this 
staffing shortage?
    Answer. Response was not received at the time of publication.
    Question 2a. As we work to secure our Southwest Border with 
barriers and technology, people will look for other ways to move 
contrabands into the United States, including by sea. The CBP Air and 
Marine Operation, stops unlawful cargo and people from reaching our 
shores.
    What are the current needs for staffing and training in this 
division of CBP?
    Answer. Response was not received at the time of publication.
    Question 2b. What is the outlook for this division; do you think 
there will be a need for increased staffing in this Department in the 
coming years?
    Answer. Response was not received at the time of publication.
    Question 2c. If we are expecting a shortage what resources can we 
give to help bolster this division to try and prevent problems like we 
are seeing in other parts of CBP?
    Answer. Response was not received at the time of publication.
    Question 3. In regards to port safety, there was a rule issued by 
the Coast Guard in 2016 that would require certain facilities to begin 
electronic inspections of Transportation Worker Identification 
Credentials (TWICs) by August 2018. However there have been concerns 
raised about the viability of these scanners, and the ability of people 
to move easily between TWIC-secured areas of the port and less secure 
areas.
    Does CBP have plans to address these concerns?
    Answer. Response was not received at the time of publication.
    Question 4a. There has been concern among ports in Florida that as 
expansions happen, valuable space within newly-constructed areas is 
being used by the CBP and Coast Guard for things not related to the 
immediate security of the port, such as gyms and unrelated offices. 
While I recognize the importance of having a strong Coast Guard and CBP 
presence in close proximity to the port, it is important that valuable 
space within in these facilities are used for port- and security-
related activities.
    Are the Coast Guard and CBP able to effectively do their jobs if 
they are in a space outside of port property but nearby with easy 
access?
    Answer. Response was not received at the time of publication.
    Question 4b. Would you support Coast Guard and CBP having two 
locations, a smaller place for necessary port functions on port 
property, and other ancillary services in a location off property?
    Answer. Response was not received at the time of publication.
 Question From Honorable Bonnie Watson Coleman for Kirstjen M. Nielsen
    Question. How does the Department of Homeland Security distinguish 
between asylum seekers and immigrants seeking entry illegally? What is 
DHS's justification for changing its policy toward asylum seekers, 
particularly families and children, and in light of the trauma 
separation will inflict?
    Answer. Response was not received at the time of publication.
     Questions From Honorable Kathleen Rice for Kirstjen M. Nielsen
    Question 1. You stated before the House Appropriations Homeland 
Security Subcommittee that the law restricts your ability to extend 
Temporary Protected Status, arguing that if the effects of the 
originating event do not continue to exist then the Secretary of 
Homeland Security must terminate this protection.
    In mid-April, a report produced USCIS in October 2017 was obtained 
by the National Immigration Project of the National Lawyers Guild 
through a Freedom of Information Act request. This report concluded 
that underlying conditions that warranted TPS for Haitians have 
persisted. Yet, DHS chose to terminate TPS for Haiti. Can you please 
explain this contradiction? What additional information or other reason 
did the USCIS Director have that allowed him to disregard the findings 
of this internal report?
    Answer. Response was not received at the time of publication.
    Question 2. In light of this discrepancy, I request that you 
provide us with the USCIS reports and other used to assess conditions 
in the other countries with TPS and DED status as well as any related 
memos prepared by Director Cissna.
    Answer. Response was not received at the time of publication.
    Question 3a. When you testified before the House Appropriations 
Homeland Security Subcommittee earlier this month, you committed to 
ensuring that ``any pregnant woman in our care in detention receives 
adequate care'' based on the recent change to ICE's policy on detaining 
pregnant women.
    Which detention facilities currently offer prenatal care?
    Answer. Response was not received at the time of publication.
    Question 3b. Can you please define for me what DHS's definition of 
``adequate care'' is and how you, as the Secretary, intend to ensure 
each pregnant woman receives it?
    Answer. Response was not received at the time of publication.
    Question 3c. What steps, specifically, are you taking to ensure ICE 
is meeting the assurances you made?
    Answer. Response was not received at the time of publication.
    Question 3d. What steps are you taking to hold accountable 
detention centers or individuals when ``adequate care'' for detained 
pregnant women is not provided?
    Answer. Response was not received at the time of publication.
    Question 4a. There have been numerous recent reports regarding poor 
conditions in ICE detention facilities, specifically regarding 
allegations of sexual harassment and assault. Late last year, the OIG 
published a report that found poor conditions in five detention centers 
that they investigated, including cases of detainee physical abuse by 
staff members.
    Given that ICE is detaining more vulnerable individuals, including 
the elderly and disabled, what additional protections are you putting 
in place to ensure the safety of the individuals detained by ICE and 
ensure they are not subject to any type of abuse by ICE agents, 
contractors, or fellow detainees?
    Answer. Response was not received at the time of publication.
    Question 4b. What has been done to address the concerns raised in 
the OIG report?
    Answer. Response was not received at the time of publication.
    Question 4c. What steps are you taking to investigate allegations 
of sexual assault while in detention?
    Answer. Response was not received at the time of publication.
    Question From Honorable J. Louis Correa for Kirstjen M. Nielsen
    Question. Please provide data and any other relevant information on 
the threats to our Northern Border compared to our Southern Border, 
specifically regarding drug smuggling, traveling known or suspected 
terrorists, other illicit activity, and violence. Please provide this 
information for activity both at and between ports of entry along both 
borders.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
